<html>
<title> - [H.A.S.C. No. 113-41] THE READINESS POSTURE OF THE U.S. NAVY AND THE U.S. MARINE CORPS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 113-41] 
                      THE READINESS POSTURE OF THE 
                  U.S. NAVY AND THE U.S. MARINE CORPS

                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             APRIL 26, 2013

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
80-770                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e582958aa5869096918d808995cb868a88cb">[email&#160;protected]</a>  
  


                       SUBCOMMITTEE ON READINESS

                 ROBERT J. WITTMAN, Virginia, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
VICKY HARTZLER, Missouri             JOE COURTNEY, Connecticut
AUSTIN SCOTT, Georgia                DAVID LOEBSACK, Iowa
KRISTI L. NOEM, South Dakota         COLLEEN W. HANABUSA, Hawaii
J. RANDY FORBES, Virginia            JACKIE SPEIER, California
FRANK A. LoBIONDO, New Jersey        RON BARBER, Arizona
MIKE ROGERS, Alabama                 CAROL SHEA-PORTER, New Hampshire
DOUG LAMBORN, Colorado               WILLIAM L. ENYART, Illinois
E. SCOTT RIGELL, Virginia            PETE P. GALLEGO, Texas
STEVEN M. PALAZZO, Mississippi
                 Jamie Lynch, Professional Staff Member
               Vickie Plunkett, Professional Staff Member
                         Nicholas Rodman, Clerk


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Friday, April 26, 2013, The Readiness Posture of the U.S. Navy 
  and the U.S. Marine Corps......................................     1

Appendix:

Friday, April 26, 2013...........................................    37
                              ----------                              

                         FRIDAY, APRIL 26, 2013
    THE READINESS POSTURE OF THE U.S. NAVY AND THE U.S. MARINE CORPS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     3
Wittman, Hon. Robert J., a Representative from Virginia, 
  Chairman, Subcommittee on Readiness............................     1

                               WITNESSES

Burke, VADM William R., USN, Deputy Chief of Naval Operations 
  Warfare Systems (N9), U.S. Navy................................     5
Cullom, VADM Philip Hart, USN, Deputy Chief of Naval Operations 
  for Fleet Readiness and Logistics (N4), U.S. Navy..............     6
Faulkner, LtGen William M., USMC, Deputy Commandant, 
  Installations and Logistics, U.S. Marine Corps.................    10
Tryon, LtGen Richard T., USMC, Deputy Commandant, Plans, Policies 
  and Operations, U.S. Marine Corps..............................     8

                                APPENDIX

Prepared Statements:

    Burke, VADM William R., joint with VADM Philip Hart Cullom...    44
    Tryon, LtGen Richard T., joint with LtGen William M. Faulkner    55
    Wittman, Hon. Robert J.......................................    41

Documents Submitted for the Record:

    President's Budget for Fiscal Year 2014 U.S. Navy Projected 
      Battle Force Inventory: Acronyms and Ship Hull 
      Classification Symbols.....................................    73
    U.S. Navy Projected Battle Force Inventory: FY 14-FY 23......    74
    U.S. Navy Projected Battle Force Inventory: FY 24-FY 33......    75
    U.S. Navy Projected Battle Force Inventory: FY 34-FY 43......    76

Witness Responses to Questions Asked During the Hearing:

    Mr. Courtney.................................................    80
    Mr. Wittman..................................................    79

Questions Submitted by Members Post Hearing:

    Mr. Wittman..................................................    83
    THE READINESS POSTURE OF THE U.S. NAVY AND THE U.S. MARINE CORPS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                            Washington, DC, Friday, April 26, 2013.
    The subcommittee met, pursuant to call, at 8:00 a.m., in 
room 2118, Rayburn House Office Building, Hon. Robert J. 
Wittman (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE 
       FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wittman. Welcome to the Readiness Subcommittee.
    Today's hearing, ``The Readiness Posture of the U.S. Navy 
and U.S. Marine Corps,'' is the subject before us.
    I want to welcome you to this morning's hearing. I would 
like to thank our witnesses for being here to address the 
readiness posture of the Navy and the Marine Corps in light of 
the fiscal year 2014 budget submission and deeply concerning 
current fiscal year shortfalls.
    Joining us today are Vice Admiral Bill Burke, the Deputy 
Chief of Naval Operations Warfare Systems, N9; Vice Admiral 
Phil Cullom, the Deputy Chief of Naval Operations for Fleet 
Readiness and Logistics, N4; Lieutenant General Richard Tryon, 
the Deputy Commandant for Plans, Policies and Operations; and 
Lieutenant General William Faulkner, the Deputy Commandant for 
Installations and Logistics.
    Gentlemen, thank you all very much for being here.
    Admiral Burke, thank you for your 40 years of service to 
the Navy and to our Nation. We are delighted to have the 
opportunity to garner your insights at your final hearing 
before this subcommittee. Again, thank you so much. I 
understand your son is here today, so the Burke family Navy 
legacy will continue. We wish, obviously, you the best as you 
move onto your next endeavor. Thanks again for your service.
    As we review this budget request, we cannot lose sight of 
the impacts on readiness and implication for operational 
missions. We are quickly compromising the readiness of our 
force, and it is our duty and commitment to ensure that we 
provide the resources necessary to support our warfighters and 
to protect our Nation, particularly in light of the fact that 
our forces have been operating at a very high operational tempo 
over the past 10 years.
    We are experiencing the very real effects of the budget on 
a daily basis. Despite the fiscal year 2013 appropriation, the 
Navy still faces a $4.5 billion shortfall in its fiscal year 
2013 O&M [Operations and Maintenance] accounts. This further 
exacerbates unanticipated bills resulting from rising fuel 
costs. So you see all those cost challenges coming to bear at 
one time, which makes things, as I said, even more complicated.
    In February of this year, the Navy deferred the deployment 
of the USS Truman to the Gulf and reduced its carrier presence 
to 1.0. Additionally, in March, an additional five deployments 
were canceled and the ``next to deploy'' forces are being 
affected. For example, we see a reduction in two carrier air 
wings to the tactical hard deck, which is the minimum level of 
training required to maintain basic air proficiency and the 
ability to safely operate the aircraft. By making the near-term 
decisions in light of fiscal constraints, the Navy will soon 
begin to see the impacts on units beyond those that are next to 
deploy.
    As maintenance availabilities get reduced or outright 
canceled the Navy will be challenged to reconstitute the 
requirement in the very near future due to the lack of capacity 
at shipyards. Ultimately, this results in significantly shorter 
life for the assets, particularly when coupled with the impacts 
of the sustained surge in recent years, which has taxed both 
the equipment and personnel at rates significantly higher than 
anticipated. Add to this mix the tenuous progress the Navy has 
made to reverse degraded surface fleet readiness trends, and I 
am deeply concerned about losing the momentum we have achieved 
to preserve the readiness of our naval force.
    In particular, I have strong concerns about the readiness 
of the fleet as it relates to the total number of ships 
projected in the inventory. Any proposal to retire assets 
earlier than the end of their expected service lives will 
increase the strain and degrade the readiness of the remaining 
force. It is apparent, by the updated Navy 30-year shipbuilding 
plan, that there are deficits in the very near future. The 
dichotomy is that you will lose capacity, but it is not 
apparent how the Navy intends to replace it.
    Despite slow improvements in Marine Corps readiness levels, 
the force structure continues to downsize to a total of 182,000 
marines, facing a nearly $1 billion cut as a result of 
sequestration. In light of the fiscal situation, the Marine 
Corps will undoubtedly be challenged to meet global 
commitments, to reconstitute the force and to sustain high 
operational tempo. The strains will likely be further 
compounded by the need to support new important missions, like 
the forward deployment of a special MAGTF [Marine Air-Ground 
Task Force] in Spain to support AFRICOM [U.S. Africa Command] 
and the expansion of critical legacy missions, like the Marine 
Security Guard Program slated to grow to protect an increasing 
number of embassies in high-risk areas around the globe.
    During my recent visit to Afghanistan, it became readily 
apparent that we have very near-term retrograde and reset 
issues associated with battle worn equipment. I witnessed 
thousands of containers, hundreds of vehicles and millions of 
individual items awaiting shipment home to units that 
desperately need them, all items at risk as transportation 
costs continue to rise and budgets continue to shrink.
    In addition to the service specific issues, one of my 
foremost concerns is consideration for the civilian workforce 
and the impacts on the depots and the skills that could be lost 
in the industrial base.
    Make no mistake, the impact of the readiness of the force 
is real, and it is occurring today. During this hearing, I 
would ask that you share your perspective on this and help us 
to answer some basic questions. How do you define 
``readiness,'' and ready for what, and will the forces be ready 
in both fiscal year 2013 and fiscal year 2014. In the absence 
of the OCO [Overseas Contingency Operation] budget for 
consideration before the Congress at this time, can you please 
describe the impact of OCO funding on your ability to provide 
ready and trained forces, and how will you sustain that in the 
long run as OCO funds begin to diminish? Please address also 
the actions that you are taking for the rebalance to the 
Pacific and what it means for both the Navy and Marine Corps 
and your ability to meet global force management allocation 
plans.
    I have every expectation that you will continue to seek 
options to mitigate the long-term consequences and ensure we 
don't create a hollow force. That said, I strongly believe that 
our long-term naval and Marine Corps strategies cannot be 
articulated until the budgetary pressures get resolved. I am 
deeply concerned that we are on the brink of the Department 
making near-term decisions that could potentially mortgage 
future force readiness, and it is imperative for us to work 
together to avert that outcome.
    With that, I would like to wish a warm welcome to my 
partner on the Readiness Subcommittee, our ranking member, Ms. 
Madeleine Bordallo, and I am truly honored to have such a 
distinguished ranking member working with me as we review these 
weighty issues.
    Ms. Bordallo.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 41.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman, for those 
kind words.
    And I would like to also welcome our witnesses this 
morning, Admiral Burke and, of course, your son, Lieutenant 
Burke, who may be in your chair in the future sometime; Admiral 
Cullom; Generals Faulkner and Tryon. Thank you for your service 
to our great country and testimony this morning.
    I have appreciated getting the chance to meet and talk with 
you over the past years, so, Admiral Burke, I understand that 
this may be the last time you testify before this subcommittee, 
and I know you will be retiring soon, and we greatly appreciate 
your service to our Nation and testimony before this committee. 
Some of us here even remember when you were a mere lieutenant 
commander in the House Liaison Office downstairs.
    This is our final in a series of hearings that will dive 
into some level of detail about the readiness issues facing 
each of the Services. Today we will explore the readiness 
challenges of the Navy and the Marine Corps.
    The Navy and Marine Corps are critical to meeting the DOD's 
strategic guidance released in 2011. In particular, the Navy 
and Marine Corps play a central role in the rebalance to the 
Asia-Pacific region. We on Guam understand the importance of 
this shift better than anyone, especially with the realignment 
of marines from Okinawa to Guam, as well as the deployment of 
additional Navy assets to the island. Additionally, the air-sea 
battle concept makes the capabilities that the Navy and the 
Marine Corps bring to the table even that more important.
    However, we are asking this in light of shrinking budgets 
and sequestration. I hope that our witnesses will broadly 
address how the Navy and the Marine Corps are balancing the 
need to support the strategic guidance in light of the impacts 
of sequestration. If sequestration is allowed to continue, 
something I very much oppose and believe we can avoid, what is 
the impact to meeting our strategic objectives from the Navy 
and Marine Corps' perspective?
    The Navy has revised its objective of retaining a fleet of 
313 ships down to a fleet of 298 ships. Given this information, 
it will be even more important for the Navy to sufficiently 
maintain and repair its current fleet of ships. Yet the fiscal 
year 2014 budget shows nearly $1.3 billion in deferred 
maintenance, and the proposed budget for repairs is decreased 
by about 20 percent below fiscal year 2013 levels. Now, how is 
the Navy going to properly maintain its fleet with its current 
operational tempo and in light of a previous history of poor 
maintenance reports?
    I also hope that our witnesses can discuss the impact of 
how deferring maintenance now saves money in the short term but 
ends up costing more in the long term and the financial 
implications of retaining our current fleet size. Further, I am 
also concerned that with current budget constraints, there is 
an increasing emphasis on repairing and overhauling ships in 
foreign shipyards. I need our witnesses to clearly indicate how 
the Navy will continue to adhere to the intent of Section 7310 
and continue to repair and overhaul U.S. Navy ships to the 
maximum extent practical in U.S. shipyards.
    I also hope that our witnesses from both the Navy and the 
Marine Corps can comment on the impact of sequestration on the 
training and flying hours that are available for their aviation 
components. We have seen a drastic reduction in flying hours in 
the Air Force for nondeployed units. Are there similar cutbacks 
in the Navy or Marine Corps, and what is the impact on 
readiness? What risks are associated with any reduction in 
flying hours?
    I am also pleased to see plans to resume the Unit 
Deployment Program in the Pacific region. The UDP [Unit 
Deployment Program] plays a critical role in ensuring that we 
have a robust, resilient and distributed posture for marines in 
the region. I hope our witnesses can comment on what, if any, 
impact sequestration would have on the UDP program.
    Finally, as our chairman, Mr. Wittman, mentioned, he and I 
just got back from Afghanistan and appreciated the chance to 
meet with service members while in theater. We spent some 
significant time on retrograde and reset issues, and I hope our 
witnesses will discuss how much equipment is currently in 
theater and challenges that will occur with reset as a result 
of sequestration.
    Again, I very much look forward to the witnesses' 
testimony.
    Thank you again, Mr. Chairman.
    Mr. Wittman. Thank you, Ranking Member Bordallo.
    Gentleman, we will go now to your testimony. I would ask 
that you stick to the 5-minute limit on your opening remarks. 
Your written comments will be entered into the record, so we 
will make sure any details that you may miss in your opening 
statement do get captured for the record. Make sure, too, that 
you push the little buttons on your microphones there in front 
of you, so we can all make sure that we hear you clearly and 
that your remarks get
recorded.
    So, with that, Vice Admiral Burke, we begin with you.

STATEMENT OF VADM WILLIAM R. BURKE, USN, DEPUTY CHIEF OF NAVAL 
           OPERATIONS WARFARE SYSTEMS (N9), U.S. NAVY

    Admiral Burke. Thank you, Mr. Chairman, Congresswoman 
Bordallo, and distinguished members of the House Armed Services 
Committee on Readiness. It is my honor to appear before you to 
testify on the readiness of our Navy, our readiness plan for 
fiscal year 2014 and the outlook for the readiness of the 
force.
    Just over a year ago, I was appointed the first Deputy 
Chief of Naval Operations for Warfare Systems, N9. In this role 
I am responsible to the CNO [Chief of Naval Operations] to look 
after the wholeness of our platforms through their requirements 
and budgetary processing within the Navy staff.
    Our Navy resources continue to be pressurized with the 
increasing costs to sustain our force, man our fleet with high-
quality sailors, and improve our capability to pace the growing 
and complex global threat. As a result of the sequestration of 
fiscal year 2013 funds and the Appropriations Act of 2013, Navy 
has a shortfall in operations and maintenance accounts, as you 
mentioned, of over $4 billion, which is approximately 10 
percent of the planned amount for the fiscal year. This has 
forced some hard choices, and some of our fleet accounts have 
been impacted.
    The Navy's decisions reflected a commitment to the 
readiness of our deployed forces, our obligations to the 
combatant commanders, and our future readiness. Navy 
recommended changes to the fiscal year 2013 Global Force 
Management Allocation Plan, or GFMAP, including canceling 
deployments in the Pacific, to Europe and to South America and 
reducing our flying hours and steaming dates for nondeploying 
units.
    Materially, we reduced intermediate ship level maintenance 
and deferred eight surface ship maintenance availabilities and 
reduced the scope of one availability. We plan to eliminate 
these deferrals with the fiscal year 2014 request and our 
fiscal year 2013 reprogramming authorities.
    Our PB 14 [President's Budget for Fiscal Year 2014] budget 
ensures sufficient forces and readiness to provide forward 
presence to satisfy our fiscal year 2014 GFMAP [Global Force 
Management Allocation Plan] requirements. However, the impact 
of fiscal year 2013's reduced fleet operations and maintenance 
will be less surge capacity. All our forces deploying in 2013 
and 2014, including two carrier strike groups and two 
amphibious ready groups, will be fully mission capable and 
certified for major combat operations. We will also retain one 
additional carrier strike group and amphibious ready group in 
the United States that are fully mission capable, certified for 
major combat operations, and available to surge within 1 to 2 
weeks. But due to reduced training and maintenance, almost all 
of our other nondeployed ships and aviation squadrons will be 
less than fully mission capable and not certified for major 
combat operations. That is about two-thirds of the fleet.
    Despite the fiscal challenges we incurred in fiscal year 
2013, our Navy advanced our readiness in critical areas. One 
such area was mine countermeasures capability. Through focused 
investment over the past 18 months, the mission readiness of 
our MCM-1 class [Avenger class Mine Countermeasures] ships has 
doubled; the clearance code time of our MH-53 [Sea Dragon 
Airborne Mine Countermeasures] helicopters has tripled, with an 
accompanying 28-percent increase in operational availability. 
We improved legacy-minded identification and clearance traits 
through rapid fielding of Seafox and MK 18 unmanned underwater 
vehicles.
    We have also begun to focus a period of investment in our 
surface fleet. As our Nation's conflicts wind down, the Navy is 
using this time to begin an 8-year reset, that will allow our 
surface fleet to undergo deep maintenance and modernization 
foregone as a result of the decade-long conflict. These reset 
efforts will help the fleet sustain these ships through their 
estimated service life, a fundamental assumption of our long-
term force structure.
    We estimate this initiative will increase our depot 
maintenance requirements by close to $2 billion over that time 
period. However, by making this investment, we will buy back 5 
to 10 years on each of our hulls, increasing our fleet's life 
by a cumulative 450 ship years.
    We appreciate the support Congress has shown the Navy, 
including continued approval of our Overseas Contingency 
Operations request. As we look forward to the future, we must 
be aware that $3 billion of our fiscal year 2014 OCO request is 
funding enduring requirements for an operational tempo and 
rotational force structure that will remain after our forces 
have withdrawn from Afghanistan. As we work together in the 
future, we will need to address this baseline shortfall to 
prevent the Navy from sacrificing investment in our future 
force structure to fund the readiness needs of our current 
fleet.
    Thank you, and I look forward to your questions.
    [The joint prepared statement of Admiral Burke and Admiral 
Cullom can be found in the Appendix on page 44.]
    Mr. Wittman. Thank you, Vice Admiral Burke.
    Vice Admiral Cullom.

  STATEMENT OF VADM PHILIP HART CULLOM, USN, DEPUTY CHIEF OF 
 NAVAL OPERATIONS FOR FLEET READINESS AND LOGISTICS (N4), U.S. 
                              NAVY

    Admiral Cullom. Chairman Wittman, Ranking Member Bordallo, 
and distinguished members of the House Armed Services 
Subcommittee on Readiness, it is my honor to join Admiral Burke 
and my Marine Corps counterparts, Generals Tryon and Faulkner, 
today to testify on Navy readiness.
    In my position, I am accountable to the CNO to work across 
the entire Navy enterprise to provide an objective, holistic 
view of fleet readiness and logistics that assesses our ability 
to support planned capability, presence and operational 
requirements. Particularly over the long term, this must 
reflect the strong interrelationship between personnel, 
equipment, supply, training, ordnance, and facilities and their 
collective contribution to support the mission.
    Our budget request strikes the most effective balance 
across these combat enablers and directly aligns with CNO's 
three tenets of ``Warfighting First, Operate Forward, and Be 
Ready.''
    Today I would like to highlight a few areas that are 
especially relevant, given our current operating environment 
and fiscal climate. These include our operational tempo, what 
it takes to meet that pace, and the additional focus we must 
have on our sailors and families, fleet training, and energy 
security, to be successful.
    Over the course of the past decade, we have been operating 
at a wartime pace with roughly half of our force at sea at any 
given point in time. In 2013, our carrier strike groups and 
amphibious readiness groups will deploy for 7 to 8 months, with 
several deploying in excess of 9 months due to emergent 
maintenance requirements or additional combatant commander 
requests for forces. Over the same decade, we have increased 
force presence 20 percent by surging our surge capacity and 
stationing roughly 6 percent more of the fleet forward, all 
with a force that has decreased in size by 10 percent.
    The underlying requirements are driven by a level of 
activity unlikely to abate with the ongoing defense rebalance 
to the Pacific, especially given the maritime nature of this 
theater and our ongoing presence requirements in Southwest 
Asia.
    The good news is that we continue to meet the demand, but 
it comes at the expense of stress to the force, both in terms 
of the impact upon sailors and their families and maintenance 
of the fleet.
    Taking care of our people is at the heart of maintaining a 
strong Navy. This budget request provides steady funding for 
warfighter and family readiness programs, like child 
development centers, fleet and family support centers, sexual 
assault prevention, and services for wounded warriors and 
exceptional family members. In addition, the budget is on track 
to meet established goals to improve the quality of bachelor 
and family housing. Our sailors can then go into harm's way 
knowing all is well on the home front and that they will be 
cared for upon their return.
    Another tool in our arsenal to mitigate stress on the force 
is our investment on shore infrastructure to give our sailors 
what they need to do their jobs. We continue to prioritize our 
sustainment, restoration, and modernization funding to target 
facilities that directly support operations, such as airfields, 
hangars, piers, and barracks. The budget includes the 
investment of $425 million in our public shipyards, fleet 
readiness centers, and Marine Corps depots. This level ensures 
the adherence for the 6-percent investment in these key 
resources required by the 2012 National Defense Authorization 
Act.
    To support a ready Navy, it is imperative we provide our 
warfighters with robust quality training before they serve at 
the tip of the spear. The budget includes sustained investments 
in key training capabilities, including fleet synthetic 
training. To further improve undersea warfare readiness, it 
also increases funding for the diesel electric submarine 
initiative and continues development of the shallow water 
training range. Continued procurement of high-speed 
maneuverable surface targets provides realistic live fire 
training at sea for operator proficiency.
    We must ensure our training investments are not compromised 
to the detriment of our warfighters. Encroachment to key 
training sites, both physical and electromagnetic, can occur 
both ashore and at sea. If not controlled, it threatens our 
ability to train and operate and can adversely impact our 
national security. Over the course of the past year, we have 
learned that encroachment can include adjacent development, 
ocean observing systems, or economic expansion. Increased 
awareness and continued interagency cooperation are central to 
maintaining our national security.
    Energy fuel and how we power our ships have always been 
vital issues for the United States Navy. As we have seen during 
previous maritime conflicts and our current ground war, 
potential adversaries see energy as a vulnerability and have 
demonstrated a resolve and ability to exploit it. Our Navy 
energy program is focused on foreclosing these efforts by 
reducing the magnitude of our energy reliance and usage. Our 
goal is to be more Spartan and judicious in what we use and 
thereby gain greater agility, endurance, and flexibility in 
conducting our missions at sea, in the air, and on land.
    This is facilitated by new technology, but it is equally 
reliant upon a change in mindset and culture. This combination 
will permit us to stay on station longer, decrease the 
frequency of replenishments, and reduce our vulnerability to an 
adversary's asymmetric attempt to use energy as a weapon. Our 
smarter use of energy will make us better warfighters.
    Together with the United States Marine Corps, the Navy 
continues to be our Nation's away team, and we must remain 
steady and capable to protect our Nation's security. Our 
sailors represent the highest quality, most diverse force in 
our history, and continue to make us the finest navy in the 
world.
    On behalf of all the men and women of the Navy--Active, 
Reserve, and civilian--thank you again for your help in 
delivering an approved 2013 defense appropriation and for your 
continued support. I look forward to your questions.
    Mr. Wittman. Thank you, Vice Admiral Cullom.
    We will now go to Lieutenant General Tryon.

 STATEMENT OF LTGEN RICHARD T. TRYON, USMC, DEPUTY COMMANDANT, 
       PLANS, POLICIES AND OPERATIONS, U.S. MARINE CORPS

    General Tryon. Good morning, Chairman Wittman, Ranking 
Member Bordallo, and distinguished members of the Readiness 
Committee. It is a pleasure for me to appear before you today 
to discuss the readiness of the United States Marine Corps. I 
am also pleased to be seated here with my fellow deputy 
commandant and my counterparts in the Navy and my shipmates, 
Vice Admiral Cullom and Vice Admiral Burke.
    Today, after a decade of combat operations, the United 
States Marine Corps remains the Nation's premier expeditionary 
amphibious force in readiness. The ability of the Marine Corps 
to serve as the Nation's crisis response force can be directly 
attributed to the steadfast support of this committee and 
Members of Congress, and for that, the Marine Corps remains 
grateful.
    Partnering with the United States Navy, we are forward-
deployed and forward-engaged across the globe. At this moment, 
there are roughly 23,000 marines deployed around the world; 
9,000-plus are serving in support of Operation Enduring Freedom 
in Afghanistan.
    Marine Expeditionary Units aboard amphibious ready group 
ships are on station in the waters of the Gulf of Aden, the 
Persian Gulf and in the Western Pacific. Forward-deployed 
amphibious forces remain a uniquely critical and capable 
component in support of our national strategic requirement for 
forward presence, crisis response, power projection, and 
theater security cooperation.
    During 2012, marines participated in more than 120 security 
cooperation engagements external to Afghanistan, developing 
partner nation capabilities, reassuring our allies, deterring 
our enemies, and providing the geographic combatant commanders 
with a credible and relevant force in readiness. Marine Corps 
forces were ready and able to respond to a range of crises, 
ranging from natural disasters to civil uprisings and to 
terrorist attacks. Marines were sent to Libya, returning once 
again to the shores of Tripoli, to provide security in the wake 
of the violence and uncertainty there.
    Fleet Anti-Terrorism Security Teams--FAST marines--also 
deployed to reinforce the security of our embassies in Egypt 
and Yemen during the period following the attempted breach of 
the embassy walls by violent protestors. Today, marines stand 
guard at 152 embassies and consulates in 137 countries around 
the world. Marines also supported Hurricane Sandy relief 
efforts in the Northeast and super typhoon Pablo relief efforts 
in the Philippines. In short, your marines have met our 
congressional mandate to be the most ready when the Nation is 
the least ready.
    Over the course of the last year, as we have drawn down our 
combat forces in Afghanistan, we have in stride reconstituted 
in support of the Defense Strategic Guidance rebalancing to the 
Asia-Pacific region, where we have had a presence for well over 
70 years. As Congresswoman Bordallo has pointed out, our Unit 
Deployment Program is well under way with the Second Infantry 
Battalion deploying this past week to Okinawa and to Darwin. 
The Third Battalion is scheduled to deploy in the fall of this 
year.
    As we look to the future, the Marine Corps is well aware of 
the fiscal realities confronting our Nation. This year's 
baseline budget submission was framed by the following service 
priorities. First, we will continue to provide the best-trained 
and equipped marines and units to Afghanistan. Second, we will 
protect the readiness of our forward-deployed forces. Third, we 
will reset and reconstitute the operational forces of our 
marines and equipment, returning after nearly 12 years of 
continuous combat operations. And, finally, to the extent 
possible, we will modernize our force by first investing in the 
individual marine and then by replacing worn and aging combat 
equipment. And throughout these efforts, we will strive to keep 
faith with our marines, our sailors, and our families.
    The Corps' challenge in an era of sequestration is to 
preserve the readiness of our forward-deployed forces, while 
working to improve the readiness of our nondeployed forces so 
that we can respond to crises and contingencies. Today, over 
half of our nondeployed units report unacceptable levels of 
readiness. The impacts of sequestration will severely challenge 
our ability to equip and train our units.
    Our crisis response mission is incompatible with tiered 
readiness. Marines don't start to get ready when a crisis 
occurs. We must be ready, we must be forward-deployed, and we 
must be prepared to respond immediately.
    After years of continuous combat operations, in order to 
meet the high state of readiness of our forward-deployed 
forces, we have globally sourced equipment and personnel, 
thereby adversely affecting our home station training and 
ultimately home station readiness. With significant degradation 
of home station readiness, responding to a major contingency 
operation will require additional time and create additional 
risk.
    Despite the efforts of sequestration and the associated 
budget caps, the Marine Corps will do everything in its power 
to protect the enduring U.S. global interests that underpin our 
Nation's security. We will meet our responsibilities for rapid 
response to crises wherever they may occur. Naval forces and 
the Marine Corps in particular are our Nation's insurance 
policy in a dangerous and unpredictable world. That is why we 
exist.
    In closing, the readiness of your Marine Corps is directly 
linked to the unwavering support of Congress and the American 
people, and we are committed to being responsible stewards of 
the scarce public funds. We are dedicated to serve the Nation 
with honor, courage, and commitment.
    Once again, I would like to thank all of the members of the 
committee for the opportunity to appear before you today, and I 
look forward to the discussion and to your questions.
    [The joint prepared statement of General Tryon and General 
Faulkner can be found in the Appendix on page 55.]
    Mr. Wittman. Thank you, Lieutenant General Tryon.
    Lieutenant General Faulkner.

     STATEMENT OF LTGEN WILLIAM M. FAULKNER, USMC, DEPUTY 
   COMMANDANT, INSTALLATIONS AND LOGISTICS, U.S. MARINE CORPS

    General Faulkner. Chairman Wittman, Ranking Member 
Bordallo, members of the subcommittee, thank you for the 
opportunity to appear before you today to comment on the 
readiness posture of the United States Marine Corps.
    As General Tryon just mentioned, our marines continue to be 
fully engaged around the globe as the Nation's crisis response 
force. This past year, we have been serving as a key member of 
the joint force in every geographical combatant command, 
meeting operational commitments as a highly capable Marine-air-
ground logistics task force. Even with the many potentially 
competing operational requirements, our number one priority and 
principal focus remains crystal clear, doing everything to 
ensure the readiness of our marines on the ground today in 
Afghanistan, as well as those men and women who are preparing 
to go.
    Concurrent with supporting operations in Afghanistan, we 
are busy ensuring that we are most ready for any contingency 
across the full range of military operations. In support of 
this effort, the retrograde and the reset of ground equipment 
after approximately 12 years of sustained ground combat 
operations in Iraq and Afghanistan is well under way. We have a 
coherent strategy in place, and it is working. We are confident 
that we know exactly what is on the ground, when it is 
scheduled to return, and where it is going to go once it is 
completely reset.
    Over the course of the last 18 months, with the help of our 
partners and the United States Transportation Command, the 
Defense Logistics Agency and others, we have reduced the amount 
of Marine Corps equipment on the ground in Afghanistan by over 
60 percent. The majority of these over 38,000 individual items 
of equipment, such as trucks, radios, trailers, and generators, 
are currently at one of our two depot maintenance facilities in 
Albany, Georgia, or Barstow, California, being repaired to be 
quickly redistributed out to select sites around the globe. We 
definitely have a sense of urgency to accomplish our reset as 
quickly as possible, maximizing each and every overseas 
contingency money provided by the
Congress.
    Concurrent with resetting our equipment from operations in 
Afghanistan, we are also supporting the defense strategy with a 
rebalance to our historic backyard in the Pacific. Support to 
Pacific operations comes with challenges to logisticians to 
combat the tyranny of distance associated with this part of the 
world. Our logisticians will be asked to do more, and we 
understand the importance of fostering development of well-
trained and educated marines able to succeed in distributed 
complex environments.
    A key enabler to our success will be the synergy and the 
cooperation between our Navy shipmates as well as leveraging 
logistics information technologies. We will continue to enhance 
the MAGTF's organic logistics capabilities through the 
continued development of naval logistics integration as well as 
the maximization of the interdependence of the Joint Force 
Supply Throughput and Distribution Organization.
    We also know that in order to remain ready, we need to 
continue to invest in our critically important bases and 
stations. Our commandant is very much aware that a hollow 
supporting establishment, or said another way, bases and 
stations unable to support the training and readiness of our 
marines, is a direct contributor to a hollow or a non-combat-
ready force.
    Our installations do much more than just house and feed our 
marines and shelter our equipment. The development and the 
preservation of our installations from recruit depots to air 
stations to training centers to other maintenance depots and 
the atrophy of our facilities will have a direct and a long-
lasting impact on our top priority, continued support to our 
marines. We must keep our depots churning in order to ensure 
the highest level of unit readiness.
    These challenges are further complicated by less resources. 
We pride ourselves on our frugal nature, and we are proud to 
say that the Nation gets the most for its money out of the 
Marine Corps. This will always be the case, but the continued 
support of Congress will help ensure we remain the Nation's 
crisis response force and the force that is most ready when the 
Nation is least ready.
    I would like to thank the committee for holding this 
hearing and ask that my statement be entered into the record, 
and, ladies and gentlemen, I certainly look forward to 
answering your questions.
    Thank you, Mr. Chairman.
    Mr. Wittman. Thank you, Lieutenant General Faulkner. We 
appreciate your opening testimony and again thank you for being 
with us today.
    I want to begin the line of questioning, focusing on the 
question about our cruisers and our amphibs [Amphibious Assault 
Ships]. We have a slide I would like to go ahead and put up 
that is the projected PB 14 battle inventory.
    If we can go ahead and put that slide up.
    [The information referred to can be found in the Appendix 
on pages 73-76.]
    Mr. Wittman. It is a little bit difficult to see, but that 
being said, maybe we can take it past the microscopic level. I 
wanted to refer to this chart specifically and tell you of my 
concern about the unsatisfactory track the Navy is proposing on 
the current inventory projection.
    In this plan, you know that Navy's projection in fiscal 
year 2015 is to retire nine assets comprised of seven cruisers 
and two amphibs which the Congress restored in fiscal year 
2013. Congress provided sufficient funds to retain and 
modernize these assets over two fiscal years. However, 
yesterday, in testimony before the Seapower Subcommittee, Navy 
witnesses reaffirmed that the Navy intends to eliminate these 
ships from the inventory with approximately 10 to 12 years 
still remaining on their hulls.
    Therefore, I would like to ask this question: How do you 
intend to employ these ships over the next two fiscal years, 
and how do you intend to use the funds that Congress has 
allocated if not for the purpose of modernizing these assets as 
Congress intended? I was wondering, how do you propose to 
backfill the capability gap with these assets not being 
available after fiscal year 2015, particularly in light of the 
increased demands that the Navy faces in the Pacific and the 
insufficient capacity that is there in their shipyards?
    If you compare the PB 14 battle force inventory to the 
previous inventory, what you see is that in fiscal year 2015, 
the previous projection was 276 ships. You see that we are now 
down to 270 ships. And my concern is, where we are going; where 
are we going to end up with capability, especially in light of 
reset and needing to make sure we have that capability in an 
area, as we know, that is going to be a challenge and where 
naval assets are going to be extraordinarily important?
    Vice Admiral Burke, I will begin with you.
    Admiral Burke. Thank you, Mr. Chairman, for the question.
    Just to start on that, we certainly share your desire to 
have the biggest and best Navy we possibly can. However, our 
challenge is we have to balance our books. So, as I testified 
last year in front of this committee on this very topic, this 
was an extremely difficult choice for us to make, but the 
fiscal situation has not changed for the better. It has 
actually changed for the worst, so we are even more challenged 
today to maintain the inventory of ships that we have than we 
were as we talked last year.
    So the reason we chose the cruisers is, yes, they do have 
about 10 years of life on them. However, they have an awful lot 
of maintenance that needs to be done and modernization that 
needs to be done. And a couple of those ships are specifically 
challenged with some superstructure cracking in their aluminum, 
that once something like that happens, you don't know if you 
can ever fully repair it. So given that, we chose those ships 
to be decommissioned.
    Now, we certainly appreciate the money and the sense of 
Congress to go fix those ships. Given that the money actually 
showed up a month ago, and not knowing whether the money would 
show up, we have not taken any action as far as maintenance or 
modernization of those ships.
    Mr. Wittman. Have you made any determination then about how 
you are going to use those moneys? Because the concern is, 
going forward, if you are not going to use those to modernize, 
to extend the service life of those ships, and there doesn't 
appear to be anything at least in the short term to replace 
that capability, the concern is that the readiness element, 
especially with the reposture to the Asia-Pacific, creates a 
pretty significant gap.
    I certainly understand resource issues, but from our 
standpoint, too, we need to be making the argument about where 
the resources need to be. I understand the limited resource 
pool, but we need to understand, is the money either going to 
be spent to modernize these ships to take them to the end of 
service life? I understand the limitation of the industrial 
base to do that, but there is also a significant limitation to 
be able to build new ships to replace those.
    So I just want to get a sense from you about what you see 
as the direction where we are going to maintain that 
capability.
    Admiral Burke. Sir, I would expect that we will operate 
those ships as normal for the next couple of years, and then we 
would decommission those ships. I believe that the money is 
better spent, as I mentioned in my opening statement, on buying 
back the life of younger ships. Because of the last 10 years, 
we have not inducted our surface fleet into maintenance at a 
level we would like to. Therefore, we have a maintenance 
backlog on many of the younger ships that we have that are more 
capable going forward than those cruisers. So we would be 
better off using that money to buy back life on ships that have 
25 or 30 years left in them than on those ships that have 10 
years left in them.
    Mr. Wittman. Admiral Cullom, do you have a perspective on 
that?
    Admiral Cullom. To answer a portion of your question about 
how would they be used, they will definitely be used as a 
portion of the battle force and to be assigned missions as we 
can in the Global Force Management Allocation Plan.
    On the second question about whether or not the 
modernization, I think we are still in the process of trying to 
look at how would you fit those modernizations for those ships, 
because they have to fit within when can you accomplish those 
in their cycle of operations they would be expected to, and you 
can't easily do all seven of those cruisers, for instance. You 
couldn't do those all in 2 years or even 3 years. It would take 
a number of years to even be able to do that.
    As we have seen with some of the aging of or the work that 
we put much of the rest of the force and how we are going to 
recover that over the next few years, it is going to take a 
number of years. I think Admiral Burke spoke to that in his 
first statement about several years, that it is going to take 8 
years or so before we are able to recover it. And doing the 
modernizations have to fit within those dry docking 
availabilities, and I think we are still evaluating the plan 
for that.
    Mr. Wittman. Thank you, gentleman.
    I am going to go now to our ranking member, but I do want 
to make one comment before I turn over the questioning. I am 
concerned that in the long run if we continue to go down the 
path of saying we are going to retire ships early, much earlier 
than what we intended, and the Navy comes back to Congress to 
ask for the next class of ship with a proposal that a ship were 
to last 25, 35, 40 years, whatever it may be, that the 
credibility begins to be eroded, and it makes it more difficult 
for Congress in considering those new classes of ships and what 
is projected as their service life out in the future to make 
those kind of commitments.
    As we know, lifecycle cost is an extraordinarily important 
part of what we need to consider here. So it is not just the 
ship class itself, but it is the lifecycle cost. And this type 
of effort really exacerbates our ability to project out in the 
future what the Navy's needs are and to be able to meet those 
needs.
    I understand the forces to be with high OPSTEMPO 
[operational tempo] and those sorts of things, but we have got 
to get things back to the point where we look at lifecycle 
costs to make sure we get these ships to their expected service 
lives. If not, we will never get our arms around this.
    Let me go ahead and go to Ms. Bordallo.
    And, Admiral Burke, I will give you an opportunity to 
comment on that later.
    Ms. Bordallo. Thank you, Mr. Chairman.
    My first question would be to Admiral Cullom and General 
Tryon. How will you know that your nondeployed forces are not 
ready to respond to an emerging mission or threat, and what 
will be the triggers or metrics that will tell you your forces 
are not ready? Also, in your opinion, how far away are we 
before we reach a significantly degraded readiness status?
    Admiral Cullom. Ma'am, with regard to what we are seeing as 
the continuing resolution that we were in as well as the 
sequestration playing out, we had already taken a number of 
cuts to the operations of the nondeploying ships. Those 
nondeploying ships, their readiness would normally be higher 
than it currently is and will be for--the restoration will 
help, but there is still going to be an impact on those 
nondeployed ships. So, in essence, the average readiness of 
those ships, and actually the chairman mentioned that in his 
opening remarks about the roughly two-thirds of the fleet that 
ends up in that position of not being able to be MCO ready--
Major Combat Operations ready--if it continues for longer, that 
can be even worse. If we go through fiscal year 2014, and we 
are still this in those challenging situations, then we will 
see that percentage grow pretty considerably. It could easily 
get up to 80 percent of the fleet that is nondeployed, is not 
ready to go in a timely manner. We can still get it ready. It 
will take longer to do that.
    The things that we look at, and this is to address the 
second part of your question about what do we look for to know 
those canaries in the coal mine, the things that tell us that 
we have got a real problem, are the things that happen 
insidiously, in terms of things like cannibalization or cross-
decking.
    Cannibalizations right now are rather steady, meaning that 
we are going to actually move it from one ship to another ship, 
actually take it off an active ship to the other. The cross-
decking, cross-decking has actually increased quite 
considerably. We are cross-decking people. We are cross-decking 
parts. So you can see that that is part of that ``bathtubbing'' 
of the readiness.
    We are keeping a close eye on those things, but right now, 
we are able to meet the 13 global force allocation program, and 
we project that we should be able to meet it unless we still 
are in the sequestration problems. Then it will get much more 
serious.
    Ms. Bordallo. More serious. General.
    General Tryon. Yes, ma'am. In response to your question 
about how will we know, we use the Defense Readiness Reporting 
System, called DRRS, as a framework to aggregate information on 
personnel, on equipment, on training and on supply readiness, 
and we balance that against--we measure that against the tables 
of organization and tables of equipment, our unit and force 
structure. Our commanders use DRRS [Defense Readiness Reporting 
System] as a tool to help the commandant understand the state 
of readiness of his Marine Corps. As an example, today, as I 
have mentioned in my opening remarks, our nondeployed home 
station units report a high level, an unacceptable level of 
readiness currently.
    We are going to know when we are unable to meet the global 
combatant commander requirements. We are going to know when it 
impacts our Unit Deployment Program and being able to put the 
battalions on Okinawa and ultimately on Guam. We are going to 
know when we have to descale or descope our training exercises, 
when our O&M, our operations and maintenance accounts, preclude 
us from conducting the mission essential training that allows 
us to be ready. We are going to know when there is an increase 
in safety mishaps, and we are going to know when there is a 
degradation of quality of life at our installations and bases. 
And I would forecast, I would predict at this point based on 
the information that is available in the DRRS, that with 
sequestration, we will be at an unacceptable level, far 
unacceptable, severely unacceptable, in fiscal year 2014.
    Ms. Bordallo. 2014.
    General Tryon. 2014, yes, ma'am.
    Ms. Bordallo. Thank you, General.
    General Faulkner, I note that funding for a Marine Corps 
hangar on Guam is requested in the fiscal year 2014 budget, and 
I greatly appreciate the Marine Corps' continued commitment to 
the realignment of marines from Okinawa. We have significant 
U.S. investment in this realignment, but we also have 
significant Japanese investment in this realignment as well. 
Unfortunately, while this committee remains supportive of the 
realignment, the Senate has continued to insist on language 
that greatly restricts the use of Government of Japan funds.
    Now, given the significant budget constraints that our 
budget faces, how critical would it be to remove these 
restrictions on Japanese funding?
    General Faulkner. Ma'am, as you stated, certainly Guam 
continues to be critically important to our larger 
repositioning through the Pacific. The aircraft hangar that you 
mentioned, just right short of $87 million is the price of that 
in 2014, and that is very important to us in support of 
exercises and others.
    Getting more specifically to your question about the 
Japanese piece of that funding, we are obviously very 
interested in those restrictions as well because that is part 
of the larger military construction package associated with not 
only Guam, which was the focus of your question, but really 
throughout the Pacific.
    We continue to follow that. We are very interested in it. 
From a DOD, Department of Defense, perspective and Department 
of Navy perspective, we are interested in doing everything we 
can at our level, recognizing the high level of political 
issues that this is being discussed at now to influence that. 
So we are very much part of the discussion and look forward to 
being in the future.
    Ms. Bordallo. Have you shared these concerns with the 
Senate?
    General Faulkner. Ma'am, to my knowledge, following what 
our Commandant has talked about in his testimony, both in front 
of the House and the Senate, I know he has talked about the 
rebalancing to the Pacific, but as I recall, he hasn't 
specifically addressed the importance of Japanese funding as 
part of the larger pivot.
    Ms. Bordallo. I think it would be very important to pass 
this on to the Senate.
    General Faulkner. Yes, ma'am.
    Ms. Bordallo. Mr. Chairman, in the interest of time, I have 
a couple more questions, but----
    Mr. Wittman. We will come back for a second round. We will 
do that.
    Mr. Wittman. Thank you, Ms. Bordallo.
    Now we will go to Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman, and gentlemen thank for 
being here today and thank you for your service to this 
country. I represent Georgia, so I have several military 
installations, a little one named Kings Bay on our coast that 
obviously is extremely important to our national security. I 
represent Robins in the heart of my district, which has a 
Marine detachment there, and I am on the edge of Albany, which 
obviously is the Marine Corps Logistics Base in Albany. I also 
have family that works at that base, so Easter, I got a good 
what-for from some of my cousins, and we had good friendly 
conversation about the things going on there as well.
    So I think I would just kind of mention as we go forward, 
these budget challenges are not going to go away in fiscal year 
2015 or 2016. We have got some significant challenges that we 
have all got to work through. And as somebody who has traveled 
to several of the bases lately, I think what I would ask and 
what I believe we need from our standpoint and I think you want 
to give us is, what is the core mission of the base, any 
individual base, going to be 24 and 36 months from now, and how 
do we balance the MILCON [Military Construction] projects that 
are being requested now with making sure that we are not 
building something that is going to take us 24 months to build 
that is not consistent with the base's core mission at the time 
of the completion of that project?
    But going back to the Marine Corps base in Albany, the work 
that is performed at that depot obviously is extremely 
important to our men and women as they train and especially 
those who are deployed. The current budget environment, when we 
talk about readiness, it is the same at any of the bases we 
talk about, my depot at Robins, the logistics base in Albany.
    I would like, if you would, to speak potentially to the 
furloughs at the Albany depot, if you could, and what we expect 
at this stage so the men and women can at least plan for their 
pay as we go forward. And then my question would be about the 
amount of the equipment--another question would be the 
equipment to be reset and how much workload we expect at that 
base going forward, which deals with capacity and other things.
    And then, as you know, General, the Marine Corps Logistics 
Base in Albany has gone over and above with green energy and 
the impact that that movement is having on operation of our 
bases.
    General Faulkner, most of those may fall under your 
category. If they fall under somebody else's, I respect their 
opinion as well.
    General Faulkner. Yes, sir. Thank you.
    Thank you very much for your question, and I will take it 
in pieces here. First--and you were spot-on with the importance 
of Albany, not only to our reset, which I will talk about, but 
just in day-to-day operations in terms of depot maintenance of 
our equipment.
    Getting to the first piece of your question in terms of 
equipment that is at Albany now or scheduled to be there once 
we continue our retrograde out of Afghanistan, on the ground 
now and in Albany is somewhere around 20,000 principal end 
items, and most of these items of equipment have been 
retrograded from Afghanistan. So our large surge buildup that 
we did in Afghanistan, all that equipment is now back. A lot of 
it is sitting--it is either waiting to go through the depot or 
it is being worked on today. Some of it has been pushed to 
Barstow, California, which is our other depot.
    Our prediction right now is, in support of reset with 
Afghanistan equipment, somewhere between 2 and 3 years after 
the last marine is out of Afghanistan, let's say December 14, 
is when we will have completed the reset of that equipment. So 
that takes us well into 17, Congressman, so that is consistent 
workload. Now, that is only for the reset out of Afghanistan. 
Of course, Albany operations will continue for the rest of the 
Marine Corps equipment. So there is a lot to do and that is why 
it is critically important that we have a stable and a 
predictable workforce, which gets to the second piece of your 
question.
    If, in fact, we are told to furlough, which we are not in 
favor of furlough, but if in fact we were to do that, then the 
civilians at Albany will be furloughed as part of a larger 
approach to all bases and stations across the Marine Corps. It 
will have an impact. For every day furloughed that we are not 
able to use the depot, it just pushes that to the right one day 
forward, so that is a concern of ours.
    What we are doing now at----
    Mr. Scott. General, my time has expired. I apologize, but 
when we get to the second round of questions, we will come 
back.
    Mr. Wittman. We can do that, or too, if you want to do some 
additional questions, we can also have that one taken for the 
record, so however you would like to pursue, Mr. Scott, we will 
be glad to----
    Mr. Scott. You can respond for the record if that is more 
convenient, and when you go to Albany, please let me know, love 
to see you over there. If it is hunting season, we will buy you 
a quail hunt.
    General Faulkner. Sir, I will, and I look forward to 
answering the energy question because that is a good news story 
for Albany.
    Mr. Scott. Yes, sir.
    General Faulkner. Thank you, sir.
    Mr. Scott. Absolutely.
    Mr. Wittman. We can certainly get that in the second round.
    Now we go to Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    Thank you, Admirals.
    Thank you, Generals, for being here.
    Throughout the time that I have been on HASC [House Armed 
Services Committee], one of the, I guess, the perplexing 
questions I have always had is what do you anticipate the force 
or your different expeditionary force, what it is going to do, 
and the Navy, what do you expect it to look like in the future? 
And quite honestly, no one has really been able to give a 
response to that, so as we talk about readiness, it seems 
obvious that you are measuring it against something. So to say 
that we are ready or we won't be ready by the year 2014 is 
against some kind of measurement that you must have in your 
mind.
    Yesterday, the Army sat in exactly where you were, and 
they, of course, said that they must be flexible into the 
future to fight in potentially two theaters, Asia-Pacific, the 
rebalance, but also the Middle East, to ensure our commitments 
to the Middle East. It seems that those are two different times 
of theaters. So, I assume that the Navy and the Marine Corps 
also feel the same way, that you are going to have to be ready 
in two potentially different theaters, so can you tell me what 
your measurement of ready would be other than being able to 
train? In other words, I want to know what that force structure 
is going to look like. And in one of the other conversations we 
had in Seapower was we had Former Secretary of the Navy John 
Lehman speak to us as well as Admiral Roughead, and you know, 
they both had different numbers as to the amount of ships that 
we would need.
    The Secretary of the Navy Lehman was from the infamous 600-
ship Navy, and he said, well, 346. Admiral Roughead said 
somewhere between 325 and 345, but they both came down to the 
conclusion that it depended on where he would be and what we 
need.
    So, with that as the background for my question, whoever 
wants it to take it, I appreciate it. Thank you.
    Admiral Burke. Thank you, ma'am.
    The way we determine what our force structure should look 
like is we develop our strategy, and today that is a--we get 
help from that from OSD [Office of the Secretary of Defense] 
and--but by that case, we all have a strategy that looks to be 
ready to fight in various conflicts around the world, but there 
are some conflicts that are potentially more likely and some 
that are potentially more challenging. And then, given that 
work, we then do what we call a force structure assessment that 
would say, okay, if that is what you--if that is the future you 
are going to see, then what kind of forces do you need? And we 
have done that work, and that says we need 306 ships with the 
associated aircraft, and people training, readiness, 
maintenance, et cetera.
    Now, then, what we do is we build a shipbuilding plan, and 
the chairman put up a portion of that shipbuilding plan 
earlier, one of the tables from it, and what that shipbuilding 
plan does, it says when we would need to buy those forces--and 
there is a similar aviation plan, when we need to buy those 
forces to achieve that number and type of platform to get to 
the 306. And as, you know, the chairman alluded, there is a 
pretty big challenge out there in the future for getting to 
that number. So we have a difference today between what we 
think we need and what OSD agrees that we would need and what 
we can afford. And so we will clearly need help from the 
Congress in order to get there.
    Ms. Hanabusa. General.
    General Tryon. Thank you, ma'am.
    I would echo much of what Admiral Burke said. We are a 
general purpose force in the Marine Corps, and as a general 
purpose force, we have a design mission. We look at the most 
likely enemy course of action, we look at the most dangerous 
enemy courses of action that we would anticipate meeting. These 
threats manifest in a variety of different manners. 
Conventional threats, threats, such as the hybrid threat where 
you have a non-nation-state actor who may have access to 
sophisticated technology that will pose a threat to our vital 
national interests. Terrorism is a concern, threats to our 
diplomatic missions abroad.
    There is a wide array of threats that we need to consider, 
and as we do that, ma'am, we measure what capabilities are 
required in order to be able to provide an adequate response 
and then what capacities we want to be able to deliver those 
capabilities.
    As an example in terms of our amphibious force, we have 
worked with our shipmates in the Navy, and we feel that it is 
important to be able to provide this Nation with a two-assault 
echelon Marine Expeditionary Brigade Force. And in 
conversations and agreements with our shipmates, that is 33 
amphibious ships.
    Mr. Wittman. Thank you, Ms. Hanabusa.
    We now go to Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman.
    Gentlemen, it is good to see you this morning. I appreciate 
your testimony. I definitely appreciate your service to your 
country.
    I have a lot of the same concerns about reset, and for me, 
largely centered around replacing old ships with new ones. The 
shipbuilding industry is extremely important. I don't think 
just to me, but to our Nation, but it is also, because of the 
fiscal restraints and the environment that we are in, when we 
do provide a product, we have to provide it at the best 
possible price, since the taxpayer is paying for it.
    So, with that, I have seen some--I have noticed some 
comments from the Commandant over the past couple of weeks, and 
I would like to ask General Tryon and General Faulkner about 
them, and I think it serves almost two purposes, not only 
replacing old ships with new ones but doing it in the most 
efficient and effective, especially cost-effective manner.
    So, to recap, a few weeks ago, the Commandant mentioned 
that he wanted to see the replacement for the LSD dock landing 
ship make use of the LPD amphibious transport dock production 
line that is about to draw to a close. Can you give us any 
thoughts on the utilization of the LPD hull as a bridge for the 
LSD hull?
    I will start with you, General Tryon.
    General Tryon. I will take a quick stab at that, and then I 
will defer to the subject matter experts on hulls. We are, of 
course, inextricably linked to the Navy, and the Navy's 
investment in amphibious ships, maritime prepositioning ships, 
ship-to-shore connectors, mine countermeasures and the Navy 
expeditionary combat commander are where we are invested and 
are our most critical dependencies with the Navy.
    We have agreed to a fleet of 30 operational available 
amphibious warships to meet the combatant commander 
requirements. Within the construct of those 30 ships, 11 
amphibious assault ships, LHA or LHD; 11 amphibious transport 
docks, LPDs; and 11 dock-landing ships, LSDs, are the inventory 
that we believe are necessary to operate and to be able to 
provide employment of the assault echelons of two expeditionary 
Marine brigades. I will defer to my Navy counterpart to discuss 
that specific----
    Mr. Palazzo. Before we do that, can I ask you, so you agree 
with the commandant that we should probably utilize this hot 
production line to bridge the gap, or do you disagree with the 
Commandant?
    General Tryon. Let me think about that. I agree with the 
commandant, sir.
    Mr. Palazzo. Okay. Thank you. I appreciate it.
    Admiral Burke.
    Admiral Burke. Congressman Palazzo, thanks for the 
question.
    The, I think, preamble on this by General Tryon was right 
on. We have an analysis of alternatives ongoing with regard to 
what the LSD replacement will be, and so that analysis of 
alternatives will consider anything at the high end. It will 
consider the LP-17-like ship and then it will consider other 
options in addition to that.
    Right now there are about 10 options being considered, and 
that is being done under the cognizance of N95 [Director of 
Expeditionary Warfare] and the Navy Sea Systems Command. N95 
works for me, and so we expect to get to a conclusion on that 
this late summer or fall.
    Mr. Palazzo. Yes, please.
    Admiral Cullom. I would also add that there are other 
combat enablers that also make this expeditionary thing work, 
and a lot of those are--they don't have the--they don't go but 
USS, they go by USNS, our Military Sealift Command ships. We 
have some really good news stories in some of those. The new 
mobile landing platforms, the MLPs, are coming off the assembly 
lines, and they are on time and on schedule. Montford Point was 
just christened just recently.
    In addition, the T-AKEs--dry cargo and ammunition ships--
are also out there, and those also add to the ability to be 
able to get the things that we need as that 911 force together 
to be able to enable the USS ships, the LSDs, the LPDs, and big 
deck amphibious ships to do their job.
    Mr. Palazzo. I appreciate your responses.
    I yield back.
    Mr. Wittman. Thank you, Mr. Palazzo.
    We now go to Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    I want to thank the witness for their testimony, very frank 
testimony this morning, particularly about the impact of 
sequester.
    You know, this morning's New York Times has a story about 
the FAA [Federal Aviation Administration] deal that passed in 
the Senate and which hopefully we are going to take up later 
today, and there is a Member, one of our colleagues, who is 
quoted, again, still lauding the benefits of sequester, saying 
I think it is the first time we have saved money in Washington, 
D.C.; I think we need to move on from the subject.
    Your testimony clearly shows that we don't--we can't move 
on. I mean, we are far from out of the woods here, and again, I 
always cite Phil Gramm, who invented sequester, who was quoted 
recently saying the purpose of sequester was not to be a policy 
but to in fact be an incentive for people to sit down and 
compromise and act. And that is really what your testimony kind 
of reinforces today very powerfully.
    And the Navy, before March 1st, did put out the warning to 
Congress, despite the claims in some quarters to the contrary. 
Admiral Greenert testified, again, before March 1st, that 
failure to fix sequester as well as failure to pass the CR 
[Continuing Resolution] would have canceled about 22 ship 
availabilities. Obviously, the CR mitigated some of that.
    I guess the question is, there are a few others, you know, 
they are sort of hanging out there, and I was wondering, one 
particular, the USS Providence, you know, whether or not, can 
you report anything this morning, whether the Navy is any 
closer to resolving, you know, that work moving forward before 
the end of the fiscal year?
    Admiral Burke. Congressman Courtney, I don't know, but I 
will get back to you.
    [The information referred to can be found in the Appendix 
on page 80.]
    Mr. Courtney. All right.
    Admiral Burke. I will take that one for the record and get 
back to you pretty quickly. I think we are getting close on 
that, but I don't think we have gotten there quite yet.
    Mr. Courtney. Thank you.
    And yeah, we would appreciate that.
    Mr. Rigell and I visited the Truman not too long ago, which 
also has been impacted by the sequester situation, and again, 
there is some sort of claims around here that, you know, the 
Navy was kind of doing what the board of education does, you 
know, cutting football when the budget is under pressure. And 
again, this is not a decision that I know you came to lightly. 
Rob and I were just over in Bahrain a few days ago, and you 
know, the hole that that creates was pretty obvious. Again, I 
was wondering if you could talk about that a little bit, Vice 
Admiral Burke.
    Admiral Burke. Yes, sir. It frustrates me greatly to hear 
the discussion about how that was a political decision. You 
know, what we were challenged with there was, we had Truman 
ready to go, could have sent Truman, and we could have had two 
carrier strike groups in the Gulf right now. However, because 
of sequestration, we would not be able to get the next one 
ready in time to go when they finish their time, so we were--
the option was either two now and none later, or one now and 
one later. And we felt like the obvious right answer to that 
was one now and one later.
    Mr. Courtney. And I mean, and that is really--we are still 
sort of stuck there for now. I mean, it really requires us to 
fix sequester in a much more comprehensive way in terms of 
funding that shortfall. Is that again correct?
    Admiral Burke. Yes, sir, that is correct. So, essentially 
where we are with sequestration in the operations and 
maintenance accounts is we have taken a pretty good hit out of 
our shore support. We have cut some administrative areas. 
Operationally, everything we are sending forward is fully 
ready, fully loaded out, et cetera, but we are not able to get 
everybody, keep everybody at the same level they have been. So 
the next guys to get ready to go, we are working them, but the 
ones that are not next are not doing very much. And so what we 
usually call that is ``surge''--the ability to send ships and 
planes forward--and we have reduced our surge capability as a 
result of sequestration in a significant way, such that two-
thirds of our force is not ready right now.
    Mr. Courtney. And again, just so we are clear, the 2014 
budget has been submitted. Let's just say, you know, this 
place, you know, had an epiphany and we moved forward and 
enacted it in record time, I mean, that still kind of begs the 
question of what you are talking about here. It doesn't sort of 
reach back and fix the problem that--of the Truman, does it?
    Admiral Burke. No, sir. If the 2014 budget were approved as 
is, we would still have sequestration.
    Mr. Courtney. Right.
    Admiral Burke. And so we would be, you know, take that, 
whatever number it is, and take $50 billion, $55 billion or 
whatever the number is off of that, and some 12--well, probably 
15 comes to the Department of the Navy, and so we--we would be 
in the same position, if not worse. And so any of those 
maintenance availabilities on the aviation side or the ship 
side that are deferred or descoped, that would start to 
cascade. And then that part of the readiness piece certainly 
affects you a year or two later, and so we would have even more 
challenges getting ships in place for it.
    Mr. Courtney. Thank you.
    Admiral Cullom. We have to remember that the Truman was 
part of the surge capability and was being surged to be able to 
handle or the desire to have two out there at one time, so that 
is what we have come to, is what Admiral Burke is saying, is 
this point where we don't have that surge capability, that 
surge volume to be able to put forward if a request for force 
comes in.
    Mr. Wittman. Thank you, Mr. Courtney.
    We now go to Mr. Rigell.
    Mr. Rigell. Thank you, Mr. Chairman.
    And gentlemen, I join my colleagues in expressing my 
sincere appreciation for your service. Thank you. Thank you 
very much. This is going to be somewhat as a followup to Mr. 
Courtney's line of questioning there, so I think it is headed 
to the Navy side of the table.
    In February, latter part of February, a number of Members, 
myself included, received a response back from Secretary Mabus 
and Admiral Greenert, and it said in part this, that the fleet 
commanders have been directed to notify contractors of the 
potential for cancellation, deferral or descoping of private 
sector fiscal
year 2013 third and fourth quarter surface ship maintenance
availabilities.
    That letter was sent to us. This bipartisan letter that we 
have sent to the Secretary, and just so you know, expressing 
our concern about this matter, we closed the letter this way; 
our letter said, This is not an acceptable solution for us or 
the taxpayers.
    Now, subsequent to those letter exchanges, we finally 
passed HR 933; 933 [Consolidated and Further Continuing 
Appropriations Act, 2013], and so, albeit late, far later than 
anyone of us would have wanted, we have provided clarity on 
funding from our side, and I ask you this morning if you could 
provide clarity where we stand on third and fourth quarter 
availabilities.
    Admiral Burke. So, where we stand is we have got eight 
avails [availabilities] that are deferred at this point. They 
are highest on our buyback list. We think we will be able to 
execute those availabilities as planned, but we are not 100 
percent sure of that. I talked to our comptroller last night 
anticipating you might ask this question, and that is where we 
stand. So they are number one on our buyback list. And he 
thinks that we will make that, we will make them happen.
    But I will tell you that one of the things you ought to 
know is, here is what happens when this sort of thing occurs: 
When the money is not appropriated at the right time, two 
things potentially happen. One is, planning stops or is 
reduced. Secondly, shipyards, knowing that avails are unlikely 
to happen, lay off people or don't hire. And when that happens, 
then if money is later appropriated, now planning gets turned 
back on, shipyards hire, but what happens is, and we will spend 
the money, but we will not necessarily get the maintenance done 
that we want to get done, so--because we haven't----
    Mr. Rigell. Admiral Burke, I hesitate to interrupt, but our 
time is always short. I just want you to know, Admiral, that 
this is realtime, of course, in Virginia, too, the Norfolk 
waterfront, and I have great empathy and understanding, and I 
am doing everything I can with my colleagues, especially in the 
House, to help my other colleagues understand that 
sequestration, the uncertainty that this institution has 
created for our men and women in uniform is harmful to our 
national defense. You know, the failure to pass a budget is in 
and of itself harmful to national defense to some degree. So, 
we are going to continue to fight for you, and I wish we had 
done better on our side.
    I do want to transition very quickly in the short amount of 
time I have left here about material inspections. The Navy, by 
law, conducts material inspections of all Navy ships to 
determine a ship's fitness, and let me just get to the point 
here.
    Three possible inspection results: satisfactory, degraded 
and unsatisfactory. If we look at the trend line of 2007, 2008, 
2009, 2010, 2011, 2012, the trend is unsatisfactory, as I see 
it here, 8 percent, 13 percent, 19 percent, 22, 20, and 21. 
That is the percentage of inspections that fall below 
satisfactory. And in the short amount of time you have here, if 
you could just give a quick comment on that. We may have to do 
this offline. I am just trying to understand the causal factors 
of why that is and if we can do something on our end to help 
you with it.
    Admiral Burke. I don't think we need help, other than, you 
know, we need to fund readiness in the way that it needs to be 
funded. If----
    Mr. Rigell. If I may, is it your testimony--not your 
testimony. Just in our conversation here, is it--is it the 
sequestration, is that--and I am just trying to understand, you 
know. It went from 8 percent to 21 percent. It looks like it is 
kind of holding at that level. Is it things that we have done 
on our end on the uncertainty side or----
    Admiral Burke. It is not sequestration.
    Mr. Rigell. Okay.
    Admiral Burke. The numbers you reference go back to, I 
think, 2007, 2008.
    Mr. Rigell. Right.
    Admiral Burke. But the last couple of years, we have 
actually been steady. So I think what we would say is that we 
have taken a round turn on this; we have stopped the bleeding; 
and we are working our way toward getting better.
    Mr. Rigell. I thank you.
    Admiral Cullom. I would add that it is a part of 10 years 
war and running those ships----
    Mr. Rigell. Yeah.
    Admiral Cullom [continuing]. So hard, not getting them in 
for the maintenance that they needed, and now having a plan to 
be able to move forward and looking at every ship individually 
and planning those things out, and we know the challenge we 
have over the next roughly 8 years.
    Mr. Rigell. Thank you very much, Mr. Chairman.
    Mr. Wittman. Thank you, Mr. Rigell.
    I want to go back to my original line of questioning and 
now drill down a little bit on amphibious capability. We know 
that our combatant commanders request that capability quite 
often for things like security cooperation and crisis response 
and regional deterrence. And these are the underpinnings of the 
Marine Corps' mission, and we know that it spans the spectrum 
of the conflict issues that we face today.
    One of the Marine Corps' principal contributions to U.S. 
global responsiveness is really focused on the rotational 
forces aboard amphibious ships, and as we have seen that 
historically, we have seen over 1,000 missions accomplished 
there over the past 21 years, so it is very, very significant.
    I want to ask this and get both the Navy and the Marine 
Corps' perspective here. In looking at the current requirements 
for amphibious lift, do we meet those requirements? And if not, 
why are we considering further fleet reductions? And I will ask 
that, and I want to ask a question as a follow up to that 
specifically for our Navy witnesses.
    If the requested amphibious ship retirements go forward, 
that is, those two amphibs will be retired, what is the Navy's 
assessment of the increased risk assumed by the Marine Corps? 
And I will ask that conversely from the Marine Corps, too, how 
would you characterize the increased risk, and especially in 
light of where the Marine Corps is faced with the reposture of 
the Pacific and also the constraints that may push the Marine 
Corps to disaggregate or distribute their MEU [Marine 
Expeditionary Unit] operations throughout the theaters? So I 
will go ahead and get your basis on the current lift 
requirements, where we are, what increased risk we might assume 
from a Navy perspective and a Marine Corps
perspective.
    Admiral Burke. The requirement is 38 amphibious ships. The 
Navy and the Marine Corps for several years have agreed that 
the 33 is a fiscally constrained requirement in order to make 
30 ships operationally available at any one time. We do not 
meet that requirement today.
    Mr. Wittman. Very good. Where do you see us going in the 
future, especially with an additional reduction of two? Where 
would we be in the near term, I say within the FYDP [Future 
Years Defense Program], where do you see us being?
    Admiral Burke. We are struggling to get to 33. We will--I 
don't have the figures in front of me, sir. You may, but we are 
in the low 30 range during that--during the timeframe. You 
know, to our discussion earlier, if--with regard to cruisers, 
you know, we kind of lumped the cruisers and the LSDs together, 
if we were to buy back any of those ships, the higher priority 
ships would be the LSDs.
    Mr. Wittman. How do you see us in the risk scenario with 
increased risk based on the level of amphibious ships we have?
    Admiral Burke. Well, we certainly have increased risk based 
on--we have risk based on not meeting our numbers, but we have 
a process called the Global Force--GFMAP, Global Force 
Management Allocation Plan, by which we address risk. So we 
take what we have, take the COCOM [Combatant Command] 
requirements, address the highest priority COCOM requirements 
with what we have, and therefore, we minimize the risk we take 
because we either don't service the lower priority requirements 
or we look for different ways to service some of those 
requirements.
    Mr. Wittman. Thank you.
    Lieutenant General Tryon.
    General Tryon. Thank you, sir. I would not need to remind 
anyone here that the United States is a maritime nation. We are 
a Atlantic Ocean nation, and we are a Pacific Ocean nation: 28 
of the world's--21 of the world's 28 megacities lie within 60 
kilometers of the coast; 95 percent of the world's 
communication travels by underwater cable; 95 percent of the 
world's commerce travels by sea; 60 percent of the population 
lives within 100 kilometers of the coast; and 23,000 ships are 
under way every single day carrying vital commerce to which we 
are inextricably linked.
    The value of the amphibious force, I think, is manifest in 
the request that we routinely see, routinely see, from the 
combatant commanders. We don't make or meet the requirements 
that they generate as part of the Global Force Management 
Allocation Plan. We consistently fall short, yet the demand 
signal remains. So the combatant commanders recognize the value 
of the amphibious and expeditionary force that we bring.
    It provides them with a low signature in terms of a shore 
basing. It provides them with the opportunity to operate from 
over the horizon. It is operational maneuver from the sea, 
ship-to-shore objective, without impinging on the sovereignty 
of a given nation, and it provides our Nation's leaders with 
the time and decision space necessary to make follow-on 
determinations.
    Mr. Wittman. Thank you. Let me ask you just with a yes-or-
no answer, will the current and future projections on 
amphibious force structure, will it affect the operational 
capacity or the structure of how the Marine Corps expeditionary 
units function today?
    General Tryon. Sir----
    Mr. Wittman. In other words, will it fragment your views?
    General Tryon. To give you a yes-or-no answer to that 
question----
    Mr. Wittman. Will it fragment your views? Will you go away 
from the current concept of how the----
    General Tryon. We have the flexibility, the agility, the 
adaptability with the Marine Air Ground Task Force afloat, to 
adjust to split ARG [Amphibious Ready Group] operations, 
desegregate ARG operations, and at the same time bringing those 
forces together for a purpose.
    The inventory right now, we have 31 this year. It will fall 
to 28 in the near term, but over the long term, it will rise to 
32 ships in the 30-year construction plan.
    Mr. Wittman. Okay, sir. Very good.
    Thanks, Lieutenant General Tryon.
    Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    Admiral Cullom and General Faulkner, what specific 
flexibilities or exceptions did you request in terms of 
furloughing the civilian personnel who provide the backbone of 
support for our operational Navy and Marine Corps? And also, 
what is the impact of using borrowed military manpower to 
backfill civilian positions or functions previously performed 
by contractors?
    General.
    General Faulkner. I will go ahead and go first, ma'am, and 
then go over to my shipmate. Thank you for the question. The 
process, as you alluded to, does allow us----
    Mr. Wittman. Leutenant General Faulkner, if you could turn 
your mike on.
    General Faulkner. Sorry, sir. Got it. The process, as you 
alluded to, does allow us to identify exceptions, which is 
exactly what we have done. And so, in the Marine Corps, what we 
have focused in on are those individuals--those civilians that 
are most closely linked to safety of our marines and our marine 
families. So, for example, fire and rescue, medical response 
capability, water and electricity plant operators that are 
linked, and in fact, we were very careful when we looked at 
each individual in terms of who met that bill.
    To answer the second piece of your question in terms of 
using military--using our marines to replace the civilians, we 
have no intention to do that. The bottom line is that we know 
right now that there will be an impact when in fact our 
civilians are furloughed. Our ratio of marine--our civilian to 
marine is 1 to 10, I believe the lowest of all the Services. 
And in fact, 69 percent of those civilians are retired 
military, so in fact, right now, that is just risk that we are 
going to have to bear through the furlough process.
    Ms. Bordallo. So, General, what you are telling the 
committee then is that in spite of the fact that furloughing 
includes the contractors and civilians, there has been no 
Active military to take these positions? Is this what I--or you 
are not using Active
military?
    General Faulkner. No, ma'am, we are not, and so we have no 
intention to take our marines from their primary occupational 
specialty and plug them into this furlough. It is risk we are 
going to have to bear.
    Ms. Bordallo. Admiral.
    Admiral Cullom. Yes, ma'am. On the Navy side, I think it is 
an important point to make that there is a direct operational 
impact to our personnel. We oftentimes think that our civilians 
are people that do administrative work and move paper around in 
the Pentagon, but the reality is, there is over 23,000 artisans 
that are either in shipyard waterfront jobs or in aviation 
depots, on the shop floor day to day that are fixing planes, 
fixing ships, and putting them back out to sea, so they have a 
very, very important role.
    What we don't often think about with the furlough is that 
we say, well, if it is a 20-percent reduction, then we lose 20 
percent of the work. But the reality is that it is much greater 
than that because we rely upon overtime in both aviation depots 
as well as within our shipyards to accomplish our work, and 
that is so that we don't have too many people on board during 
the periods where there is lesser work, so we rely upon that 
overtime to get us through that.
    So, the impact is the 20 percent direct that you lose as 
well as maybe 15, 17 percent additional that is the overtime 
because you are not allowed to pay overtime if you furlough. So 
the impact can be as high as almost 40 percent, 35, 40 percent 
in terms of the impact that it has to us.
    It is not our intention either to use military personnel. 
They don't oftentimes have the skill sets to do what those 
artisans do.
    Ms. Bordallo. Thank you, Admiral.
    And I have one final question, Mr. Chairman.
    And it is a question for each of you, but if I could have a 
concise answer, since time is the essence.
    Okay. How are you using sequestration as an opportunity to 
essentially change and transform the way you do business? For 
example, what thought have you given to administrative or base 
operation functions that the Navy or Marine Corps may not need 
to do at all? I guess we will start with Admiral Burke.
    Admiral Burke. Thank you for the question.
    I think there are a couple of things that we are looking at 
doing. One is--we started this some time ago, but it is 
certainly even more appropriate during the fiscal situation--is 
to put more ships forward, so to get more bang for the buck out 
of the ships. So those ships in your theater that are 
homeported forward in Guam or Japan, give us more bang for the 
buck. We get far more operational availability out of those.
    So we are sending LCS [Littoral Combat Ship] to Singapore. 
We will send another SSN [nuclear-powered attack submarine] to 
Guam, while at the same time, maintaining what we have in other 
areas. We will also send some JHSVs [joint high speed vessel] 
for it, but I think there is other things as well.
    We certainly are looking hard at our administrative 
overhead to see what we can skim out there, and then--and then 
BRAC. I mean, we have a need for BRAC [Base Realignment and 
Closure]. The last BRAC was based on 340 cruiser equivalents. 
We have--we don't have anywhere near 340 cruiser equivalents. 
We don't have anywhere near 340 ships, and it is unlikely we 
will have that many, so we are carrying excess overhead that we 
need to get at.
    Ms. Bordallo. Thank you.
    Admiral.
    Admiral Cullom. Ma'am, I would also add that we are also 
looking at our business transformation, the businesses that we 
do, and service contracts as well as the audit ability that we 
have for our records, and I would like to get back to you, 
maybe for the record, with a response more complete to how to 
align the things that we are doing in that regard because those 
are important, and they save millions, and those millions go 
back to putting ships back to sea.
    Ms. Bordallo. General Tryon.
    General Tryon. Yes, ma'am. We are, I think, probably 
already pretty lean in terms of our bases, stations, and 
installations. We pride ourselves on being good stewards of the 
scarce public funds. I think we consume the smallest percentage 
of the Department of Defense budget. We do consistently and 
continuously look at force structure, force structure review, 
force structure analysis. We look hard at where operational 
concepts can blend with technological innovation and provide us 
with the capability that is more efficient and more effective 
for our Nation. I would point to the deployment of the Special 
Purpose MAGTF Crisis Response that is under way today 
responding to request for forces for AFRICOM as an example of 
that kind of a measure.
    And I will pass to General Faulkner.
    Ms. Bordallo. General Faulkner.
    General Faulkner. Ma'am, real quickly. I would just add 
that we don't need sequestration as a forcing mechanism, if you 
will, to review our internal processes. That is continuous. We 
like to say, like camouflage, it is continuous. The only thing 
I would say, just for the record, is that getting to my fellow 
marine's point is we don't believe we have any excess 
infrastructure. In fact, we believe that we are right-sized 
today in terms of bases and stations for our 182,100 force. 
Certainly, if we are told to participate in BRAC, we will do 
the analysis again, but again, that is where we sit in terms of 
our infrastructure.
    Ms. Bordallo. So what I am taking from this is you are all 
going to be better businessmen, right? Thank you.
    Thank you, Mr. Chairman.
    Mr. Wittman. Thank you, Ms. Bordallo.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    And gentlemen, I apologize, after my question, I am going 
to be leaving for another meeting.
    But I want to come back to you, General Faulkner, but I 
want to make a kind of a statement if I could to the gentlemen, 
the
admirals.
    Our national geography for America gives us a distinct 
advantage over many countries. I mean, our enemies are not 
going to come through Canada. They are not going to come 
through Mexico. I mean, we would clearly be able to stop that 
at those borders if they tried that.
    I guess my frustration with the naval shipbuilding, if you 
will, is that I believe our threat comes from the sea. The 
Atlantic, the Pacific, that is where, that is where I think if 
a major country wanted to come to us and do us harm, they would 
come through there. Obviously, the Gulf is there, but I think 
that is limited as well.
    So, I would like for us to find a way to do a better job of 
the shipbuilding, and I would just offer this as an example, 
may or may not work: In Georgia, when I was on the 
appropriations committee, if we were buying a fleet of school 
buses and the life expectancy of the school buses was 5 years, 
we would issue a 5-year bond to purchase those buses. And I 
just wonder if there is a better way for us to handle the 
purchasing of the fleet that maybe could be considered as we go 
forward, that may actually help us get the ships that we need 
to defend this country.
    I know we are going to be forward-deployed, but as an 
American citizen, as a father, I also want to make sure that we 
have got enough naval vessels here to protect us in the 
Atlantic and the
Pacific.
    General, you mentioned BRAC, and you said that you have got 
excess capacity. For me, as a Member of Congress, we hear that 
from most of the branches. If you know you have excess 
capacity, I would like for you--to ask you to trust us and to 
show us where that excess capacity is. If you know there is 20-
percent excess capacity, can you tell us where it is?
    Admiral Burke. Sir, I can--you know, I can tell you what I 
just said. We have--we did the last BRAC based on 340 cruiser 
equivalents. We don't have that today. We have fewer ships than 
aircraft by 10 percent than what we had during the last BRAC of 
2005. We have not done the specific analysis that would need to 
be done in order to give you the answer, you know, on which one 
is specifically in excess. But given those--given those numbers 
based on the last one, it is clear to me that there is excess.
    Mr. Scott. Thank you.
    General Faulkner, if I may, I would love for you to have 
the opportunity to finish the answer, especially with regard to 
the Marine Corps logistics base in Albany with the green energy 
initiatives.
    General Faulkner. Sir, thank you for the question.
    The energy situation in the Marines, we feel like, is a 
good news story, and there are two components. Certainly there 
is the installation piece and the operational piece. Just real 
quickly on operational piece, if I could.
    Right now we are pursuing several initiatives in terms of 
energy-efficient sheltering, solar batteries, generators, 
reverse osmosis water purification, et cetera. But getting to 
the installations piece, which is your question, Albany is 
certainly a good news story, and they have been recognized by 
Secretary of the Navy for their initiatives in terms of energy, 
use of an on-base landfill that was created to generate power 
right there in support of not only the base proper, but the 
logistics base as well. Also, they are pursuing third-party 
financing off base with some of the local partners in terms of 
an energy coop, if you will, to better support their efforts.
    Quite frankly, they are at the forefront among all our 24, 
25 bases and stations in terms of what they are doing in 
support of energy, together with doing their normal day-to-day 
operation in terms of our depot maintenance efforts, so a good 
news story in terms of energy.
    Mr. Scott. Thank you, gentlemen.
    And again, if you come down there, I would love to have the 
opportunity to buy you lunch or a cup of coffee, and we will 
see you there.
    General Faulkner. Sir, I will take you up on that.
    Thank you.
    Mr. Scott. Mr. Chairman, I yield for the remainder of my 
time and apologize for having to step out.
    Mr. Wittman. No problem. Thank you, Mr. Scott.
    Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    One of the other hearings that we had, it was evident that 
the Navy and Marines basically have the flexibility in what you 
have in your operation maintenance, that you really didn't have 
to furlough, but the problem was, I believe, the Army that 
didn't, and as a result, the furlough issue that affects our 
civilians was going to be one that treated everyone ``the 
same.'' So, as a result of that, we went from the 20 to 
potentially the 14 to potentially 7. As far as I know, we still 
have not gotten the final word as to what that number is going 
to be, but is it still remaining true that if the--if the 
branches were to be able to treat their respective civilians 
separately, that the Army and the Marine Corps really do not 
have to institute the furlough; is that correct?
    Admiral Burke. Do you mean the Navy and the Marine Corps, 
ma'am?
    Ms. Hanabusa. Yes.
    Admiral Burke. Yes. I think what you said is accurate. A 
decision has not been made yet. That decision is being looked 
at today by the Secretary of Defense, and I don't--I personally 
have no insight into what he might decide.
    Ms. Hanabusa. But you do have sufficient funds that you 
would not need to furlough if given the opportunity to make 
that decision independent--as an independent branch. That is 
also correct, isn't it?
    Admiral Burke. Excuse me. I don't know--we would certainly 
like not to furlough and--but I don't know how the, necessarily 
how the money is going to shake out, so I don't know whether 
that will end up being true in our case or not.
    Ms. Hanabusa. Well, I know the Army has made it very clear 
that they would have to furlough, and I think the Navy has, in 
the past, given testimony that they think that you can avoid 
it, so we appreciate that.
    General, you made a statement in my last series of 
questions about the most likely enemy, and I would like for you 
to define--you don't have to identify the most likely enemy, 
but if you can--if you can define what you think that most 
likely enemy is going to require, I would appreciate it, and I 
am raising this in the context of--because as I said earlier, I 
have asked this question many times, and I still remember what 
General Chiarelli said, and he said, We have been 100-percent 
accurate in being 100-percent wrong, on determining what that 
enemy is going to look like in the future. So given that, I 
would like to know what you are planning when you said the most 
likely enemy.
    General Tryon. Thank you, ma'am. Tough question. If it is 
true that we have been 100-percent wrong all the time, my 
thoughts are, then we better be 100-percent ready for whatever 
is coming our way. I don't know that I would put my finger on 
any particular nation as a threat, but you only have to read 
the front page of your newspaper to identify a wide variety of 
threats.
    We look at North Korea today and the threat they pose to 
our homeland in terms of Guam. In Hawaii, we look at our--the 
hybrid threats, the hybrid threats that I mentioned that are 
out there that manifest themselves on an all-too-regular basis. 
We look at terrorism, which has touched us in the recent past, 
and I would simply say that as a general purpose force, we have 
to rely on the indications and warnings, we have to rely on 
what we know to be the world as it is in order to prepare to 
defend our vital national interests and the security of the 
country.
    That is probably not the essay answer you were looking for, 
but it is a difficult question, I think, to provide a precise 
response to you, ma'am.
    Ms. Hanabusa. Thank you. And you can understand why in 
trying to understand what we should be appropriating for, that 
it is a very difficult question because unless we understand 
what you are expecting to fight, then it then determines, I 
think, what we would, of course, fund appropriately.
    General Tryon. If I may, ma'am, that is a great point. What 
I would tell you is I know where we don't want to fight them, 
and that is here, in the CONUS--the Continental United States. 
It is not in Hawaii, and it is not in Guam. So we need to be 
forward-deployed and ready to meet and engage at a distance, 
and your Navy/Marine Corps team is optimally organized to do 
just that.
    Ms. Hanabusa. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Wittman. Thank you, Ms. Hanabusa.
    I wanted to finish my line of questioning with focusing 
again on the readiness element and looking at the current ship 
capabilities, and that includes the number of ships going 
forward. There is still, I think, a significant amount of 
concern about where we are, and I wanted to then follow up on 
that and ask this question, Admiral Burke. What can Congress do 
to keep the retirement of those nine ships from happening in 
fiscal year 2014? Would extending the funds that we put out for 
the next 2 years past 2014, would that allow the ships to stay 
in service longer? Give us your perspective on how we, as 
Congress, can help to maintain the most capable Navy going 
forward?
    Obviously, we have got some tough decisions to make about 
resources, but we have to be able to know what we can do in 
order to battle for those resources because that is essentially 
what it is, is battling, within the defense budget, to make 
sure that Navy receives a portion of those resources, and then 
within the Department of Defense framework, within the entire 
budget, to battle for those. So give me your perspective on how 
we can--what can we do to put off or get those ships to their 
expected service life?
    Admiral Burke. Yes, sir. First of all, I certainly 
appreciate and agree with your concern about service life and 
lifecycle costs. Admiral Cullom and I are broken records inside 
Navy talking about this.
    But I think, given the shortage of funding, that we have 
several options available on where we could spend our limited 
resources. I am a fan of keeping everything until service life, 
but we won't be able to do that, so I would prefer to put the 
money into destroyers as opposed to cruisers, because those are 
younger; the modifications we need to make to them are simpler; 
and we are actually looking for ways to, as I mentioned the 
other day in your office, looking at ways to combine 
availabilities and do better on those availabilities as far as 
time and cost.
    In the case of the cruisers, we have enough of them without 
those ships. So, I think they would be--we would potentially be 
throwing good money after bad. If we are to buy back something, 
I would buy back the LSDs. To get to the specific point on the 
cruisers, however, the challenge we have is I got it that it 
was pretty clear that the committees--all four committees--were 
interested in retaining those ships but the money shows up at 
the 6-month point and it is 2-year money, and it is hard to go 
buy things with 2-year money to maintain them.
    So, a potential option is to extend the life of that SMOSF 
[Ship Maintenance, Operations, and Sustainment Fund] money, and 
if you were to extend the life of that money, we would have the 
opportunity, perhaps, to work out a way to retain some of those 
or all of them or--but I think that would give us the 
flexibility to at least have a conversation about it and 
probably get there.
    Mr. Wittman. And I certainly understand the whole 
restrictions on certainly one of those ships there and the 
decisionmaking there. I understand, too, some of the issues 
with the aluminum superstructure, so--but what we would want to 
be able to do is to again look in that short term, where we 
have that precipitous dip in the number of ships that are 
available, which I think is a concern to all of us, and I 
appreciate you talking not only about the cruisers but also 
about the LSDs, which we think are important.
    Let me ask you something. I want to go back to another 
macro question, too, and it goes right back to PB 14 structure 
numbers. What do you all believe--and I want to ask across the 
board here. I want to ask of the Navy, and I want to get the 
Marine Corps' perspective. What do you believe the fleet size 
needs to be? And I know what you project can be build or will 
be built, but what do you think the fleet size needs to be to 
normalize maintenance, training, and operations across the 
fleet, based on today's surge operations tempo? And we look at 
that, and reset is going to be an important part of that going 
forward, so we always try to project, and what was pointed out 
earlier is, you know, we don't always get that right.
    But that being said, we live in today's world that is 
pretty dangerous, and our ability to respond, just as was 
pointed out by the Marine Corps, is absolutely critical, and 
our ship capability, I believe, is the cornerstone of this 
Nation's defense structure in order to really respond to the 
things that happen around the world.
    I mean, we watch today, anything that has happened from a 
security standpoint, who is there at the tip of the sphere? It 
is the Navy that goes there immediately along with the Marine 
Corps. So I want to get your perspective. Where do we need to 
be as far as fleet size to really do the things that we need to 
do? And I would like to get every one of your perspectives on 
that.
    Admiral Burke. Sir, just a quick question before I answer 
it. Are you talking about where we should be without fiscal 
constraints, or are you asking, given fiscal constraints, what 
are we able--what would be the right size?
    Mr. Wittman. I would say--I would say, sans the fiscal 
constraints, looking purely at strategy and looking at what you 
project, where do you think that we need to be?
    Admiral Burke. Yes, sir. As I mentioned earlier to 
Congresswoman Hanabusa's question, we actually--taking the 
strategy and then doing a detailed force structure assessment 
by our assessment division, we determined that the right number 
is 306. And it is a mix of various types of ships.
    So, that is where we think it ought to be. Now, that would 
require, in addition to just buying the ships, we would need--
we would need to fill in the OCO hole. We have $3 billion or so 
in OCO that ought to be in base. There are some other issues 
that we would need to--need to address, but those are 
relatively minor when you compare it to the money to buy the 
ships in the first place and the OCO; everything else is 
relatively minor. So we think that 306 is the right number.
    Now, that will change over time. It changed here recently 
from 313 to 306, and that is just addressing certain things 
that have changed in the world and certain things that will--
parts of our force structure that we will retire or a different 
way of doing things with our force structure, for instance, 
with our SSNs or SSGNs [cruise missile submarines], they will 
go away over time. We think we can essentially do that mission 
by putting Virginia payload modules in this. So, you know, 
there is a little bit of give and take over the years, but 
generally, it is in the low 300s.
    Mr. Wittman. Very good.
    Vice Admiral Cullom.
    Admiral Cullom. Yes, sir, I would concur with Admiral 
Burke. The Force Structure Assessment is pretty clear on how it 
gets to the number and the methodology by which it gets to it. 
So, in the unconstrained environment, 306 is the right number.
    I think the reason, when you have asked that question of 
numerous people and you keep getting different answers, if you 
will, across the board, is that combatant commander desires and 
requests out there, we do not fulfill all those, not by a long 
shot; roughly only half of those. So, above and beyond the 
things that the Force Structure Assessment towards the 
operational plans are built, there is this need that, because 
of what General Tryon was talking about, that need for us to be 
out there because it is such a maritime world and everyone 
lives close to a coast is why there is a desire to have more 
than that.
    In the constrained world, that then, I would have to say, 
tell me what the constraint is and I can tell you what that 
could give us in a whole manner. And we have had to do a lot of 
thinking about that just in case we can't get further on 
sequestration.
    Mr. Wittman. Very good.
    Admiral Burke. Before you throw it to General Tryon, can I 
just add one thing, sir?
    In order to meet COCOM demand, we would need a Navy 
approaching 600 ships. Certainly, we would be happy to have 
anywhere between 300 and 600, but I think that is probably 
unreasonable, and that is where the GFMAP comes in adjudicating 
where we go and where we don't.
    Mr. Wittman. Lieutenant General Tryon.
    General Tryon. My Navy counterparts are nervous right now, 
sir, as I prepare to answer this question. This is a force 
generation and a capacity question. I think due diligence on 
the part of the Department of Navy has been realistic, given 
our funding
available.
    The fleet response plan for amphibs is 27 months, and 
understanding operational availability is typically running at 
70 percent, I would tell you that we would say that the 38-ship 
requirement that has been advertised heretofore is a realistic 
number. It would not meet, again, all of the combatant 
commander requirements, but we believe it would provide us with 
the forward-deployed presence, the ability to surge and at the 
same time to maintain and take care of the ships in the event 
that we had a major contingency
operation.
    Mr. Wittman. Very good.
    Lieutenant General Faulkner.
    General Faulkner. Sir, I would just add, I won't throw out 
a number, but I would just add, and it was mentioned earlier in 
terms of our strategy and our rebalancing to the Pacific, even 
more so in the future than ever before, it is going to be 
important for those very reasons that we are forward to be 
relevant and that we are flexible and we are as agile as 
possible, and that is going to call for us to be able to be 
even better in terms of training.
    We didn't talk much about sea basing when in fact that is a 
key part of our future ability logistically to support across 
those wide areas in the Pacific, and it demands an even greater 
reliance on that amphibious shipping.
    Thank you.
    Mr. Wittman. Very good. Thank you, gentlemen.
    I appreciate your perspective. As you can see from our 
standpoint, it is a little frustrating, because the numbers, as 
you know, go all over the chart as far as where we need to be 
strategically. I have always been a proponent to say that 
strategy needs to drive budget, not budget driving strategy. 
And then it is up to Congress to make the tough decisions about 
where does the money goes. And many times it is going to fall 
under what the strategy may dictate, but at least we have the 
knowledge and we can make an objective decision about how 
priorities need to be made. And we can ask you then the 
questions and say, well, if we need 306, 316, 330, whatever the 
number may be, and this is what we can do, how do we address 
that in the short term and the long term? So I want to make 
sure that we continue to have an understanding there.
    One question I do want to pose to you, but I want to take 
it for the record, and that is one of the areas we will look at 
in the future that is a significant cost for both the Navy and 
the Marine Corps is energy and whether it is operational energy 
or at the base level. I want to get your perspective on what 
both branches or what the Navy is doing, with the Marine Corps 
being an element of that, what you all are doing on reducing 
that energy cost. I think there are a lot of things that are 
going on that are pretty significant, but I want to get you all 
on the record as to what you are doing with that. And that is a 
significant cost savings. As you know, when we get that energy 
footprint down, it is money we can plow back into the force 
structure and the systems that we need for the Navy in the 
future.
    [The information referred to can be found in the Appendix 
on page 79.]
    Mr. Wittman. So, Ms. Bordallo, do you have any other
questions?
    Ms. Hanabusa?
    Very good. Well, with that, we will adjourn the 
Subcommittee on Readiness.
    Gentlemen, thank you so much for joining us today. Thanks 
for your perspective.
    [Whereupon, at 10:00 a.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             April 26, 2013

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 26, 2013

=======================================================================

      
                  Statement of Hon. Robert J. Wittman

               Chairman, House Subcommittee on Readiness

                               Hearing on

                 The Readiness Posture of the U.S. Navy

                       and the U.S. Marine Corps

                             April 26, 2013

    Welcome to this morning's hearing. I would like to thank 
our witnesses for being here to address the readiness posture 
of the Navy and Marine Corps in light of the Fiscal Year 2014 
budget submission and deeply concerning current fiscal year 
shortfalls. Joining us are:

        <bullet> LVice Admiral Bill Burke, the Deputy Chief of 
        Naval Operations Warfare Systems (N9);
        <bullet> LVice Admiral Phil Cullom, the Deputy Chief of 
        Naval Operations for Fleet Readiness and Logistics 
        (N4);
        <bullet> LLieutenant General Richard Tryon, the Deputy 
        Commandant for Plans, Policies and Operations; and
        <bullet> LLieutenant General William Faulkner, the 
        Deputy Commandant for Installations and Logistics.

    Gentlemen, thank you all very much for being here. Admiral 
Burke, thank you for your almost 40 years of service to the 
Navy and to our Nation. We are delighted to have the 
opportunity to garner your insights at your final hearing 
before this subcommittee. And, we wish you all the best as you 
move on to your next
endeavor.
    As we review this budget request, we cannot lose sight of 
the impacts on readiness and implications for operational 
missions. We are quickly compromising the readiness of our 
force, and it is our duty and commitment to ensure that we 
provide the resources necessary to support our warfighters and 
to protect our Nation, particularly in light of the fact that 
our forces have been operating at a very high operational tempo 
over the past 10 years.
    We are experiencing the very real effects of the budget on 
a daily basis. Despite the FY13 appropriation, the Navy still 
faces a $4.5 billion shortfall in its FY13 O&M accounts, which 
is further exacerbated by unanticipated bills resulting from 
rising fuel prices. In February of this year, the Navy deferred 
the deployment of the USS Truman to the Gulf and reduced its 
carrier presence to 1.0. Additionally, in March, an additional 
five deployments were cancelled, and the next-to-deploy forces 
are also being affected, for example, by reducing two carrier 
air wings to ``tactical hard deck,'' which is the minimum level 
of training required to maintain basic air proficiency and the 
ability to safely operate the aircraft.
    By making the near-term decisions in light of fiscal 
constraints, the Navy will soon begin to see the impacts on 
units beyond those that are ``next-to-deploy.'' As maintenance 
availabilities get reduced or outright cancelled, the Navy will 
be challenged to reconstitute the requirement in the very near 
future due to lack of capacity at the shipyards. Ultimately, 
this results in significantly shorter service life for the 
assets, particularly when coupled with the impacts of the 
sustained surge in recent years which has taxed both the 
equipment and personnel at rates significantly higher than 
anticipated. Add to this mix the tenuous progress the Navy has 
made to reverse degraded surface fleet readiness trends, and 
I'm deeply concerned about losing the momentum we have achieved 
to preserve the readiness of the naval force.
    In particular, I have strong concerns about the readiness 
of the fleet as it relates to the total number of ships 
projected in the inventory. Any proposal to retire assets 
earlier than the end of their expected service life will 
increase the strain and degrade the readiness of the remaining 
force. It is apparent by the updated Navy 30-year shipbuilding 
plan that there are deficits in the very near future. The 
dichotomy is that you will lose capacity, but, it is not 
apparent how the Navy intends to replace it.
    Despite slight improvements in Marine Corps readiness 
levels, the force structure continues to downsize to a total of 
182,000 marines facing a nearly $1 billion cut as a result of 
sequestration. In light of the fiscal situation, the Marine 
Corps will undoubtedly be challenged to meet global 
commitments, to reconstitute the force, and to sustain high 
operations tempo. The strains will likely be further compounded 
by the need to support new, important missions like the forward 
deployment of a special MAGTF in Spain to support AFRICOM and 
the expansion of critical legacy missions like the Marine 
Security Guard program slated to grow to protect an increasing 
number of embassies in high-risk areas around the globe.
    During my recent trip to Afghanistan it became readily 
apparent that we have very near-term retrograde and reset 
issues associated with battle-worn equipment. I witnessed 
thousands of containers, hundreds of vehicles, and millions of 
individual items awaiting shipment home to units that 
desperately need them--all items at risk as transportation 
costs continue to rise and budgets continue to shrink.
    In addition to the service-specific issues, one of my 
foremost concerns is consideration for the civilian workforce 
and the impacts on the depots and the skills that could be lost 
in the industrial base. Make no mistake--the impact to the 
readiness of the force is real, and is occurring today. During 
this hearing, I would ask that you share your perspective on 
this and help us answer some basic
questions:

        <bullet> How do you define ``readiness''? And, ready 
        for what? And, will the forces be ``ready'' in both 
        FY13 and FY14?
        <bullet> In the absence of the OCO budget for 
        consideration before the Congress at this time, can you 
        please describe the impact of OCO funding on your 
        ability to provide ``ready'' and trained forces? And, 
        how will you sustain that in the long run as OCO funds 
        begin to diminish?
        <bullet> Please address the actions you are taking for 
        the rebalance to the Pacific, what it means for both 
        the Navy and Marine Corps, and your ability to meet 
        Global Force Management Allocation Plans.

    I have every expectation that you will continue to seek 
options to mitigate the long-term consequences and ensure we 
don't create a hollow force. That said, I strongly believe that 
our long-term Naval and Marine Corp strategies cannot be 
articulated until the budgetary pressures get resolved. I am 
deeply concerned that we are on the brink of the Department 
making near-term decisions that could potentially mortgage 
future force readiness, and it is imperative for us to work 
together to avert that outcome.

[GRAPHIC] [TIFF OMITTED] T0770.001

[GRAPHIC] [TIFF OMITTED] T0770.002

[GRAPHIC] [TIFF OMITTED] T0770.003

[GRAPHIC] [TIFF OMITTED] T0770.004

[GRAPHIC] [TIFF OMITTED] T0770.005

[GRAPHIC] [TIFF OMITTED] T0770.006

[GRAPHIC] [TIFF OMITTED] T0770.007

[GRAPHIC] [TIFF OMITTED] T0770.008

[GRAPHIC] [TIFF OMITTED] T0770.009

[GRAPHIC] [TIFF OMITTED] T0770.010

[GRAPHIC] [TIFF OMITTED] T0770.011

[GRAPHIC] [TIFF OMITTED] T0770.012

[GRAPHIC] [TIFF OMITTED] T0770.013

[GRAPHIC] [TIFF OMITTED] T0770.014

[GRAPHIC] [TIFF OMITTED] T0770.015

[GRAPHIC] [TIFF OMITTED] T0770.016

[GRAPHIC] [TIFF OMITTED] T0770.017

[GRAPHIC] [TIFF OMITTED] T0770.018

[GRAPHIC] [TIFF OMITTED] T0770.019

[GRAPHIC] [TIFF OMITTED] T0770.020

[GRAPHIC] [TIFF OMITTED] T0770.021

[GRAPHIC] [TIFF OMITTED] T0770.022

[GRAPHIC] [TIFF OMITTED] T0770.023

[GRAPHIC] [TIFF OMITTED] T0770.024

[GRAPHIC] [TIFF OMITTED] T0770.025

[GRAPHIC] [TIFF OMITTED] T0770.026

[GRAPHIC] [TIFF OMITTED] T0770.027

?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 26, 2013

=======================================================================

      
                President's Budget for Fiscal Year 2014

        U.S. Navy Projected Battle Force Inventory (FY 14-FY 43)

             Acronyms and Ship Hull Classification Symbols

    AFSB (I): Afloat Forward Staging Base, Interim
    AS: Submarine Tender
    CG (47): Ticonderoga Class Aegis Guided Missile Cruiser
    CLF: Combat Logistics Force
    CVN: Aircraft Carrier
    DDG-1000: Zumwalt Class Guided Missile Destroyer
    DDG-51: Arleigh Burke Class Aegis Guided Missile Destroyer
    FFG: Frigate
    JHSV: Joint High-Speed Vessel
    LCS: Littoral Combat Ship
    LHA/LHD: Amphibious Assault Ship
    LPD: Amphibious Transport Dock Ship
    LSC: Large Surface Combatant
    LX (R): Dock Landing Ship Replacement
    MCM: Mine Countermeasures Ship
    MHC: Coastal Mine Hunter
    MLP: Mobile Landing Platform
    MPS: Maritime Prepositioning Ship
    SSBN: Nuclear Ballistic Missile Submarine
    SSC: Small Surface Combatant
    SSGN: Nuclear Guided Missile Submarine
    SSN: Nuclear Attack Submarine
    T-AE: Ammunition Ship
    T-AGOS: Ocean Surveillance Ship
    T-AKE: Dry Cargo/Ammunition Ship
    T-AO: Fleet Replenishment Oiler
    T-AOE: Fast Combat Support Ship
    T-ARS: Rescue and Salvage Ship
    T-ATF: Fleet Ocean Tug 

    [GRAPHIC] [TIFF OMITTED] T0770.029
    
    [GRAPHIC] [TIFF OMITTED] T0770.030
    
    [GRAPHIC] [TIFF OMITTED] T0770.031
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 26, 2013

=======================================================================

      
            RESPONSES TO QUESTIONS SUBMITTED BY MR. WITTMAN

    Admiral Burke and Admiral Cullom. Energy is necessary for every 
Navy platform, installation, and asset and its judicious use is central 
in ensuring the success of our operational mission. We are working 
diligently to reduce consumption and improve security for our energy 
resources, become more resilient and effective warfighters, and thereby 
enhance our combat capability. Each of our energy initiatives reduce 
our total ownership cost, improve our energy security, and critically 
enhance our combat capability.
    Examples of Operational Energy Initiatives:

        <bullet>  Ship Energy Dashboard: Ship-wide monitoring system 
        that will, in real-time, compute the power usage and operating 
        conditions of numerous energy-consuming systems on the ship and 
        display this information for decision-makers, both in port and 
        underway.
        <bullet>  Stern Flaps (Amphibious ships): Develop and install 
        stern flaps on LHD 1 and LSD 41/49 class ships for improved 
        hydrodynamics, improved fuel economy, and greater endurance.
        <bullet>  Aviation Simulator Upgrades: Simulator fidelity 
        improvements and capacity expansion, in combination with Fleet 
        optimization of simulator contribution, reduces flight hours 
        while maintaining sufficient levels of training and
        readiness.
        <bullet>  DDG-51 Hybrid Electric Drive R&D: An electric motor 
        attached to main reduction gear allows for electric propulsion 
        mode at slower speeds resulting in improved fuel economy and 
        endurance.
        <bullet>  Aviation Energy Conservation R&D: Identifies, 
        evaluates, validates energy savings initiatives for legacy and 
        emerging Naval aircraft such as F-35 Block 5+ engine fuel 
        economy, improved mission planning software to incorporate 
        energy considerations, and T-56 engine maintenance refinement 
        to increase energy performance, reduce tanking requirements, 
        and improve range/
        endurance.
        <bullet>  Variable Cycle Advanced Engine Technology: Identify 
        and mature critical technologies for next generation carrier-
        based aircraft that combine the high performance of a military 
        engine and the fuel efficiency of a commercial core into a 
        single versatile propulsion system.

    Examples of Facility Energy Initiatives:

        <bullet>  Energy Efficiency: To reduce energy demand and 
        consumption, Navy is conducting energy audits, installing high-
        efficiency building components (HVACs/energy control systems/
        lighting/window film) and optimizing utility systems.
        <bullet>  Renewable Energy: Evaluate and pursue renewable 
        energy projects where economically viable. The Secretary of the 
        Navy has established the 1GW task force to identify, develop 
        and execute utility scale renewable energy projects on/around 
        Naval installations.
        <bullet>  Energy Security Ashore: Conducting audits and 
        developing mitigation strategies to ensure critical assets have 
        a resilient energy supply.

    Navy is not only relying on technological solutions to energy 
consumption reduction, but also pursuing culture change initiatives 
through education and working to reform the acquisition process to 
ensure energy considerations are considered early in the process. Navy 
has already established programs to affect culture change, such as the 
Master's program and Executive Education Course at Naval Postgraduate 
School, which focus on energy efficiency as a combat enabler and 
incorporate energy conservation practices in a component of the coveted 
Battle `E'.
    I will defer to the Marine Corps to address their operational and 
facilities energy reduction efforts. [See page 35.]

    General Tryon. [The information was not available at the time of 
printing.] [See page 35.]

    General Faulkner. [The information was not available at the time of 
printing.] [See page 35.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. COURTNEY
    Admiral Burke. USS PROVIDENCE (SSN 719) will be conducting 
submarine operations for the remainder of Fiscal Year 2013 (FY13). USS 
PROVIDENCE (SSN 719) FY13 docking availability is scheduled to be 
executed with a period of performance from 15 December 2013 to 17 April 
2014. [See page 21.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 26, 2013

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. WITTMAN

    Mr. Wittman. In light of the existing shortfalls in the FY13 O&M 
accounts, what are your greatest concerns about the Navy's readiness? 
And, what is the impact it will have on the future?
    Admiral Burke and Admiral Cullom. Our greatest concerns regarding 
Navy readiness, in light of the shortfalls in the FY13 O&M accounts, 
are the potential loss of eight planned surface ship maintenance depot 
availabilities and the backlog of work in our maintenance depots (ship 
and aviation) due to mitigation actions required by the FY13 
sequestration. After Congress completes its consideration of the 
Department's proposed reprogramming for FY13, we are hopeful that 
funding will be available to complete the eight unfunded 
availabilities. However, as a result of overtime restrictions, a hiring 
freeze, and furloughs, there will be delays in completion of required 
maintenance in our ship and aviation depots.
    If maintenance work scheduled for FY13 is pushed into FY14, 
additional resources will be required above those currently budgeted to 
execute that work. If additional mitigations are required due to 
sequestration in FY14, the effects will be compounded and will quickly 
drive readiness shortfalls with a longer recovery
period.
    Mr. Wittman. How do you define ``readiness''? And, ready for what? 
And, will the forces be ``ready'' in both FY13 and FY14?
    Admiral Burke and Admiral Cullom. The processes and certifications 
for Navy readiness and force generation are defined in Fleet 
instructions. In general, Navy measures readiness against resources 
(personnel, equipment, supply, training and ordnance) and mission areas 
(and their associated Navy Mission Essential Tasks), and operationally 
certifies units/groups using outside observers in both live and virtual 
training environments. Our goal is to certify all deploying forces for 
the full range of major combat operations for which our Navy's multi-
mission platforms are designed.
    In FY13, Navy has prioritized resources to ensure Forward-Deployed 
Naval Forces and rotationally deploying forces are ready. Navy will 
take the same approach in FY14, but in case of a continuing resolution 
and/or sequestration in FY14, this will again come at the cost of 
readiness of our non-deployed forces. This will impact our surge 
capacity and ability to support additional requests for forces by the 
Combatant Commanders.
    Mr. Wittman. In the absence of the OCO budget for consideration 
before the Congress at this time, can you please describe the impact of 
OCO funding on your ability to provide ``ready'' and trained forces? 
And, how will you sustain that in the long run as OCO funds begin to 
diminish?
    Admiral Burke and Admiral Cullom. OCO funding has been essential to 
Navy's ability to provide `ready' and trained forces during the 
conflicts in Iraq and Afghanistan over the past 12 years. The 
operations and sustainment of our Navy expeditionary combat support 
forces most directly involved in the operations have been highly 
leveraged with OCO funding. Sustaining this long warfight has also worn 
upon the material condition of our ships and OCO funding has become a 
critical component of our ship maintenance program. Supplemental 
funding above the baseline will likely be required for some time to 
restore the readiness of our ships. The Ship Operations, Aviation Depot 
Maintenance and Flying Hour Programs also receive OCO and cannot 
sustain their present level of operations without it. Navy remains 
concerned that, although ground combat operations will end in 
Afghanistan, Navy operations are likely to continue at their current 
pace or even increase in the coming years.
    Current Navy force structure and our current level of operations 
are not sustainable with the baseline budget.
    Mr. Wittman. In light of the fact that the Navy has spent the last 
6 years operating a significant part of the force above a long-term 
sustainable tempo level, as the DOD draws down in Afghanistan and 
rebalances to the Pacific, a predominantly maritime environment, will 
the Navy be able to sustain its operations and meet enduring GFMAP 
requirements with base funding? And, by doing so, what risk will you 
assume?
    Admiral Burke and Admiral Cullom. Current base funding does not 
fully sustain our current force structure and ongoing level of 
operations. The Ship Maintenance account is highly leveraged with OCO, 
and the Ship Operations, Aviation Depot Maintenance and Flying Hour 
Programs cannot support a level of operations equivalent to that today 
without supplemental funding. Attempting to sustain operations within 
baseline funding will quickly degrade the material condition and 
readiness of the force, create conditions that will make it challenging 
to retain our best personnel, and move the Navy towards a hollow force.
    Mr. Wittman. How do you ensure you do not create a ``hollow force'' 
and that you continue to preserve the short- and long-term ability to 
provide ready forces to the combatant commanders--particularly in light 
of the impacts to operations, training and maintenance due to 
sequestration?
    Admiral Burke and Admiral Cullom. Navy requires a long-term 
budgetary and strategic framework in order to properly align resourcing 
decisions that will sustain Fleet readiness and provide ready forces, 
with the right capabilities, to the Combatant Commanders. In the 
present environment of year-to-year sequestration, we are attempting to 
preserve the reversibility of budget decisions until it is clear what 
that framework may be. Our priority remains to provide ready forces to 
the Combatant Commanders. This will become increasingly difficult as 
training is compressed and maintenance/modernization is deferred. 
Repeated budget sequesters, as opposed to a long-term plan that 
balances fiscal constraints with a strategic vision for the force, 
results in the compounding of negative readiness impacts from year to 
year and will ultimately result in a hollow force.
    Mr. Wittman. What are the operational impacts of civilian furloughs 
on maintenance activities particularly in light of civilian hiring 
freezes and reduction to overtime work?
    Admiral Burke and Admiral Cullom. Furloughs, combined with the 
ongoing hiring freeze and overtime restrictions, will have an extended 
impact on Fleet maintenance capacity.
    For example, the combination of the civilian hiring freeze, 
overtime restrictions, and 11 furlough days at the aviation depots is 
expected to delay the delivery of approximately 66 aircraft and 370 
engines and modules from FY13 into FY14. This equates to 80% of a 
carrier air wing, and will result in fewer aircraft ready for tasking 
and a commensurate reduction in flight hours for non-deployed units. 
Recovery of the delayed work will drive additional unbudgeted costs. 
The Naval Shipyards have been exempted from the furlough and were 
recently granted a hiring freeze waiver. This waiver, approved on 18 
June 2013, allows the Naval Shipyards to hire to replace 100% of 
attrition and up to 25% of programmed growth for FY14. While the 
furlough exemption and hiring freeze waiver mitigate much of the impact 
to the shipyards, the cumulative effects of overtime restrictions and 
the hiring freeze to date have impacted FY13 capacity resulting in a 
corresponding delay in the completion of maintenance availabilities. 
The final number of availabilities impacted and magnitude of delays 
will depend on several factors, including the length of time the 
remaining overtime and hiring restrictions are in effect, the amount of 
workforce attrition and corresponding loss of experience, and the 
ability of the shipyards to hire to the maximum extent allowed by the 
waiver.
    Mr. Wittman. The Navy was about to turn a corner on reversing its 
trend of degraded surface fleet maintenance. What will be the short- 
and long-term impacts to the fleet of the FY13 funding impacts and 
sequestration? And, if given additional money, is there any ability to 
recover the availabilities in the same timeframe?
    Admiral Burke and Admiral Cullom. As reflected in our initial FY13 
budget, Navy remains committed to performing the necessary ship depot 
maintenance to sustain the readiness of the Fleet. While sequestration 
has had a significant impact on surface ship maintenance funding, we 
have been able to execute all but eight of the FY13 availabilities to 
minimize the short-term impact to the Fleet. Those eight private-sector 
availabilities remain a top priority for Navy and we are pursuing 
options to fund them this year. In the public-sector, some 
availabilities will be extended in the short-term due to capacity 
reductions as a result of FY13 sequestration actions such as the hiring 
freeze and overtime restrictions.
    If Navy is able to fund the remaining FY13 availabilities and 
sequestration is limited to FY13, we do not expect long-term impacts to 
surface fleet readiness. If sequestration continues into FY14, funding 
for private-sector availabilities will be at risk that would reduce the 
capacity utilization of public sector yards. The result would be an 
increase in the backlog of surface ship maintenance, erasing the hard-
earned gains made in recent years toward improving surface ship 
material
readiness.
    The Navy's FY14 Budget is based on the assumption that all FY13 
work is completed as planned. Any work deferred from FY13 will either 
displace planned FY14 work or require additional funding. Even with 
additional funding in FY13, the Navy will not be able to recover all 
eight availabilities in the same timeframe as originally planned. While 
these delays will impact near term readiness, Navy should be able to 
reschedule the availabilities to ensure long-term surface fleet 
readiness.
    Mr. Wittman. What is the current requirement for amphibious lift? 
What level are we currently providing? What is the plan to close the 
shortfall?
    Admiral Burke and Admiral Cullom. <bullet> The Navy remains 
committed to the 38 amphibious ship requirements, fiscally constrained 
to 33, to meet naval amphibious lift demand. This number was validated 
through a Force Structure Assessment (FSA) based on defense strategy 
guidance. The assessment addressed the operational demands and 
requirements and took into account the importance of maintaining an 
adequate national shipbuilding design and industrial base.
    <bullet>  33 ships ensure 30 are operationally available to meet 
operational timelines and will optimally be comprised of 11 LHA/D, 11 
LPD 17 and 11 LSD/LX(R).

        --11 LHA/D will be achieved in FY22 with delivery of LHA 8.
        --11 LPD 17 will be achieved in FY17 with the delivery of LPD 
        27.
        --11 LSDs can be achieved in FY25 once the first LX (R) is 
        delivered.

    <bullet>  In the short term, we are accepting risk to aviation and 
vehicle lift. We may be able to reduce the risk by relying more heavily 
on carrier tactical aviation for close air support and by delivering 
additional support vehicles via Mobile Landing Platform (MLP) and/or 
Joint High Speed Vessel (JHSV) to support ground maneuver.
    <bullet>  Our proposed delivery/decommissioning profile will meet 
historical sourcing for Amphibious Ready Groups. However, with an 
emphasis to PACOM, we must accept some risk to geographic Combatant 
Commander's demand for independent deployers to source activities such 
as Partnership Stations and rely more on other platforms such as MLPs 
and/or JHSVs to support these independent
operations.
    Mr. Wittman. If requested amphibious ship retirements go forward, 
what is the Navy's assessment of the increased risk assumed by the 
Marine Corps?
    Admiral Burke and Admiral Cullom. <bullet> In the short term, we 
are accepting risk to aviation and vehicle lift. We may be able to 
reduce the risk by relying more heavily on carrier tactical aviation 
for close air support and by delivering additional support vehicles via 
Mobile Landing Platform (MLP) and/or Joint High Speed Vessel (JHSV) to 
support ground maneuver.
    <bullet>  The Navy remains committed to the 38 amphibious ship 
requirements, fiscally constrained to 33, to meet naval amphibious lift 
demand.
    <bullet>  33 ships ensure 30 are operationally available to meet 
operational timelines and will optimally be comprised of 11 LHA/D, 11 
LPD 17 and 11 LSD/LX(R).
    <bullet>  Our proposed delivery/decommissioning profile will meet 
historical sourcing for Amphibious Ready Groups. However, with an 
emphasis to PACOM, we must accept some risk to geographic Combatant 
Commander's demand for independent deployers to source activities such 
as Partnership Stations and rely more on other platforms such as MLPs 
and/or JHSVs to support these independent
operations.

    Mr. Wittman. How do you define ``readiness''? And, ready for what? 
And, will the forces be ``ready'' in both FY13 and FY14?
    General Tryon and General Faulkner. The Marine Corps uses a 
framework to manage its readiness as an institution. Known as the Five 
Pillars of Institutional Readiness, this framework seeks to ensure that 
Service-wide activities lead to a proper balance among five categories 
pillars that underpin the readiness of the Marine Corps. These pillars 
capture the Marine Corps' approach for generating ready forces today 
and informing an investment strategy that will ensure the future 
readiness of the Marine Corps and enable it to meet the tenets of the 
Defense Strategic Guidance. Maintaining balance across these pillars is 
critical to achieving and sustaining the Nation's expeditionary force-
in-readiness for today and tomorrow. The five pillars are:

        <bullet>  High Quality People (Recruiting, training, educating, 
        and retaining high quality people plays a key role in 
        maintaining our high state of readiness).
        <bullet>  Unit Readiness (Maintaining readiness of the 
        operating forces and reserves, including appropriate operation 
        and maintenance funding to train to core missions and maintain 
        equipment).
        <bullet>  Capacity versus Requirements (Force-sizing and naval 
        capabilities to meet Geographic Combatant Commander 
        requirements with the right mix of capacity and capability).
        <bullet>  Infrastructure Sustainment (Investing in real 
        property, maintenance, and infrastructure).
        <bullet>  Equipment Modernization (Ensuring ground and aviation 
        equipment matches the needs of the emerging security 
        environment).

    During the development of the FY13 budget, the Marine Corps worked 
to build a comprehensive program that achieved balance between these 
pillars. The passing of HR 933 enables the Marine Corps to meet near-
term readiness commitments for deployed and next-to-deploy forces; 
continue to rebalance to the Pacific; and support the Marine Rotational 
Force Darwin and the Unit Deployment Program in FY13. While the Marine 
Corps is capable of meeting near-term readiness commitments in FY13, we 
are taking risk in our long-term infrastructure sustainment and the 
unit readiness of our home station units due to sequestration. We 
cannot continue to sustain these levels of reductions in FY14, without 
impacts to our non-deployed crisis response forces at home.
    Mr. Wittman. In the absence of the OCO budget for consideration 
before the Congress at this time, can you please describe the impact of 
OCO funding on your ability to provide ``ready'' and trained forces? 
And, how will you sustain that in the long run as OCO funds begin to 
diminish?
    General Tryon and General Faulkner. The Marine Corps' readiness 
remains heavily dependent on the Overseas Contingency Operations (OCO) 
budget as it provides funding to sustain the manpower, operations, and 
equipment repair and replacement in support of Operation Enduring 
Freedom (OEF). The Department's strategic guidance emphasizes a smaller 
and leaner force that will no longer be sized to support long-term 
stability operations that have dominated the past decade. The enduring 
active duty end strength required for the Marine Corps to support the 
new strategy is 182,100 Marines. With the move to the new strategy and 
the Marine Corps' commensurate reduction to 182,100 Marines, end 
strength above 182,100 is now considered to be temporary end strength 
and as such, has been requested in the OCO budget. This overstrength 
must be maintained through the end of FY16 to allow the Marine Corps to 
simultaneously support its forward presence mission, combat operations 
in support of OEF, Combatant Commander requirements, and ensure that it 
keeps faith with its Marines.
    The reset of our equipment after more than a decade of combat 
requires an unprecedented level of effort, and our depots stand ready 
to meet the challenge. Reset is composed of strategic and operational 
reset; our fiscal year 2013 near term, operational reset cost is $0.9 
billion and is included in the Overseas Contingency Operations request. 
Strategic reset costs will not be finalized until OEF operations have 
ceased and reset will occur over a two to three year period following 
the return of our equipment from Afghanistan. Last year, our reset 
liability was approximately $3.2 billion. We estimate it will be 
something less, however; we are unsure exactly what that number is 
until we can get a better picture on both the totality of the costs 
associated with returning our equipment from Afghanistan and the 
detailed costs associated with resetting our gear after 10 years of 
combat.
    Mr. Wittman. How do you ensure you do not create a ``hollow force'' 
and that you continue to preserve the short- and long-term ability to 
provide ready forces to the combatant commanders--particularly in light 
of the impacts to operations, training and maintenance due to 
sequestration?
    General Tryon and General Faulkner. The Marine Corps balances the 
long-term health and readiness of its force by balancing resources 
across five broad pillars: high quality people, unit readiness, 
capability and capacity to meet requirements, infrastructure 
sustainment, and equipment modernization. Maintaining balance across 
all five of pillars is critical to achieving and sustaining Marine 
Corps readiness. Given the impacts of sequestration, the Corps is being 
forced to take actions to ensure its short-term readiness, such as 
transferring facilities sustainment funding to support operations and 
equipment maintenance. These actions create an imbalance across these 
pillars that result in both near- and far-term readiness shortfalls and 
concomitant impacts with respect to long-term readiness. The Marine 
Corps has a strategic trajectory to reconstitute to a ready force by FY 
17. Its reconstitution efforts will restore and upgrade combat 
capability, ensure units are ready for operations across the range of 
military operations, and sustain home station readiness so that units 
are ready to deploy on short notice. Unit training is rebalancing to 
encompass capabilities across the range of military operations, with a 
renewed emphasis on core expeditionary and amphibious capabilities. 
Marine Expeditionary Force and Marine Expeditionary Brigade readiness 
will continue to improve with larger-scale exercises that emphasize 
shifts to conducting maneuver and amphibious operations.
    America's ``Force in Readiness'' must maintain a high state of 
readiness at all times to respond to contingencies and commitments 
throughout the globe. Despite the constrained funding resulting from 
sequestration, the passing of HR 933 will mitigate most of this year's 
near-term operational impacts from sequestration. The Marine Corps will 
meet near-term commitments for deployed and next-to-deploy forces. It 
will continue to rebalance to the Pacific and support the Marine 
Rotational Force Darwin and the Unit Deployment Program. The funding 
levels for ground depot maintenance allow for the continuation of 
planned reset activities. HR 933 supports recruiting, advertising, and 
restores funding for tuition assistance
programs.
    In FY 14 and beyond, sequestration would negatively impact future 
readiness. Facilities sustainment reductions would be unsustainable and 
would degrade training range sustainment and quality of life for 
Marines and their families. The curtailment of training and maintenance 
would degrade the readiness of non-deployed crisis response forces. 
Nearly half of Marine Corps ground units and one-third of Marine Corps 
aviation combat units would remain below acceptable readiness levels. 
Sequestration would also adversely impact operations and exercises in 
FY 14 and beyond. Sequestration will decrease training opportunities as 
the Corps reduces its scale, scope, and participation in operations and 
exercises for each geographic combatant commander. The Corps will need 
to invest in ranges and facilities to maintain readiness, particularly 
as it rebalances to the Pacific. Sufficient O&M funding is needed for 
steady state operations and to maintain equipment. Sufficient O&M is 
also essential in the Pacific to support the Unit Deployment Program, 
provide rotational forces in Guam and Australia, and train and engage 
within the region.
    Equipment shortages are the biggest readiness detractors for the 
Corps' operating forces and sequestration will exacerbate that problem. 
The full impact of sequestration on depots has yet to be determined. 
Sequestration related delays in modifications, critical survivability 
and mobility upgrades, and modernization programs for equipment will 
adversely impact materiel condition and the Corps' ability to provide 
Marines with ready, relevant, and capable combat systems.
    Sequestration's impacts on the availability of amphibious and 
maritime prepositioning ships are a concern for reconstituting the 
force. The combat readiness of these ships is a foundational 
requirement for training to and executing expeditionary force presence 
and amphibious force projection. As such, the Navy acknowledged that 
low amphibious ship availability and readiness could present a 
significant challenge to the training readiness of Naval Expeditionary 
Forces and it is actively addressing maintenance readiness shortfalls. 
Continued Congressional support for the Navy's shipbuilding and surface 
ship-to-shore connector programs is vital to retain and maintain an 
adequate fleet of modern combat-ready amphibious ships, which provide 
continuous naval expeditionary presence and projects power across the 
globe.
    The linkage between resources and readiness is immediate and 
visible, and fiscal restraints have caused the Corps to pay keen 
attention to its priorities. To guide the Marine Corps as it optimizes 
investments and readiness in the force, its priorities are:

        <bullet>  Provide the best trained and equipped Marine units to 
        Afghanistan
        <bullet>  Protect the readiness of forward-deployed rotational 
        forces within the means available
        <bullet>  Reset and reconstitute the operating forces as 
        Marines and equipment return from more than a decade of combat
        <bullet>  Modernize the force through investments in human 
        capital and by replacing aging combat systems
        <bullet>  Keep faith with Marines, Sailors and families
    Mr. Wittman. What are the operational impacts of civilian furloughs 
on maintenance activities particularly in light of civilian hiring 
freezes and reduction to overtime work?
    General Tryon and General Faulkner. Despite the fact that the 
Marine Corps has not instituted a civilian hiring freeze at this time, 
Marine Corps operational readiness will be impacted by depot 
maintenance workforce furloughs. Marine Depot Maintenance Command 
(MDMC) is the primary source for repairing and resetting the Marine 
Corps' ground weapons systems. The 11-day furlough will have negative 
impacts on maintaining depot productivity necessary to complete the 
FY13 scheduled workload. Approximately 240,000 direct labor hours will 
be lost and, as a result, a commensurate level of FY13 workload will be 
carried over into FY14. Historically, MDMC has maintained an overtime 
rate of approximately 25%. MDMC plans to maintain that overtime rate 
during the furlough period without violating overtime guidance from 
DON.
    Mr. Wittman. How will the Marine Corps absorb additional missions 
like the MAGTF in Spain without impacting training or other missions? 
How would the Marine Corps' ability to absorb future mission growth be 
hampered by a full implementation of sequestration?
    General Tryon and General Faulkner. U.S. Marine Corps leadership 
recognized two significant events were on the horizon; warfighting 
efforts in the USCENTCOM region were approaching conclusion, and U.S. 
economic recovery would be a prolonged event; and embarked upon a route 
which reviewed the structure of the Marine Corps (Force Structure 
Review Group--FSRG) and how that structure could be best utilized 
(Force Optimization Review Group--FORG) to remain as the Nation's 
premiere Force In Readiness. These efforts re-shaped the U.S. Marine 
Corps and reduced overall end-strength from 202k to 181.1K, and 
eliminated redundancies and duplicative efforts across the U.S. Marine 
Corps. These fiscal offsets permitted the U.S. Marine Corps to maintain 
regionally aligned forward postured Special Purpose Marine Air Ground 
Task Force (SPMAGTF), rotational Amphibious Ready Group(ARG)/Marine 
Expeditionary Units(MEU) and reconstitution of III MEF forces in the 
Pacific; as well as introduction of SPMAGTF-Crisis Response (CR) in 
response to the New Norm.
    Previous fiscal off-sets notwithstanding, the U.S. Marine Corps 
continues to review all Geographical Combatant Command (GCC) rotational 
force demands to determine if efficiencies can be gained to reduce 
overall operating, employment and sustainment cost. The U.S. Marine 
Corps currently has three SPMAGTF's forward postured in the European 
Area Of Responsibility (AOR). Each are deployed to provide specific 
capabilities to the supported GCC's (CDR USAFRICOM/CDR USEUCOM); yet 
the U.S. Marine Corps recognized resourcing challenges (i.e. fiscal, 
manpower, material, equipment, etc.) associated with forming, 
organizing, training, equipping, sustaining and reconstituting these 
SPMAGTF's; and employed an ``economy of force'' methodology where each 
SPMAGTF performs a wider array of missions/task beyond their core 
purpose. These additional missions/task are inclusive of Crisis 
Response (CR), Theater Security Cooperation (TSC) and Security Force 
Assistance (SFA); thereby negating a requirement to generate upwards of 
90 additional stand-alone Mobile Training Teams (MTT), Subject Matter 
Expertise Exchange (SMME) Teams, and PTDO SECFOR elements; resulting in 
employment/operating cost efficiencies which provide sufficient fiscal 
offsets to maintain the current force posture. The U.S. Marine Corps 
continues to address efficiencies by closely reviewing SPMAGTF-AFRICOM, 
SPMAGTF-CR and SPMAGTF-Black Sea Rotational Force (BSRF) After Action 
Reports (AAR) and official Lesson Learned in order to revise force 
generation, force employment and force reconstitution actions.
    A broader review of U.S. Marine Corps structure, roles/
responsibilities, core competencies and operational imperatives may be 
required to determine feasibility to maintain our current forward-
deployed operational posture. However, in the interim, the U.S. Marine 
Corps has employed a broad review of Global Force Management (GFM) 
requirements with the intent to closely analyze existing GCC force 
demands, mission/task and depth of U.S. Marine Corps resources in an 
effort to determine level of effort required to maintain current 
SPMAGTF posture. This analysis reflected no immediate off-ramps or 
curtailments were required, providing economy of force efforts (as 
previously noted in question 10) were permitted to continue, with 
options to economize in other functional areas (i.e. logistics, 
maintenance, sustainment, etc), permitting greater flexibility to both 
the Service and supported GCC. However, as previously noted, FULL 
sequestration will require a more detailed analysis of all allocated 
SPMAGTF's, their specified and implied missions/task, and U.S. Marine 
Corps fiscal posture across all functional and operational areas. It is 
anticipated that such analysis will require consideration of further 
economy of force actions under a FULL sequester, whereas potential 
curtailment (less than 1.0 presence), or de-scoping actions (SPMAGTF 
mergers: SPMAGTF-AFRICA and SPMAGTF-CR) may be required in order to 
reduce C2, logistics and aviation redundancies. The U.S. Marine Corps 
continues to plan to meet HIGH priority and emergent CCDR requirements, 
with potential lesser priority GFM offsets as
required.
    Mr. Wittman. What are the impacts associated with delaying or de-
scoping the reset and reconstitution of the Marine Corps? How does your 
reset plan support the new strategic guidance's directed role for the 
Marine Corps? How will reset be impacted by sequestration? How long 
will it take to recover?
    General Tryon and General Faulkner. There is a significant risk to 
the long term health of the force associated with delaying or de-
scoping reset and reconstitution. As previously documented in CMC 
Congressional testimony, the Marine Corps delayed the reset of a 
significant amount of the Iraq equipment set to support the 2009 surge 
into Afghanistan. As a result, reversing the accelerated degradation of 
our ground equipment, including most of the medium and heavy 
transportation assets and almost all the Marine Corps fleet of MRAPs, 
is critical to increasing home station unit readiness and 
reconstituting the force. On average, fifteen percent of our mission 
essential equipment remains in Afghanistan and up to thirty percent for 
some items such as critical low density radar and satellite 
communications suites, heavy engineering equipment and our medium and 
heavy tactical vehicle fleet. Significant reset workload exists at our 
Depots and maintenance facilities today. We returned over 40,000 items 
to date to those facilities with over 11,700 (28%) reset and returned 
to the operating forces thanks to the funding support from the 
Congress. To complete reset and realize force reconstitution by FY2017, 
the Marine Corps will continue to require OCO funding support from 
Congress for approximately two to three years after the last Marine 
leaves theater.
    Our Reset funding Strategy fully supports Marine Corps' strategic 
guidance to maintain a global crisis response capability that ensures 
readiness of ground equipment in support of amphibious operations 
shipping and maritime positioning ships worldwide. Although the purpose 
of the Reset Strategy is to create unity of effort across the 
enterprise with respect to reset planning and execution from 
Afghanistan, it similarly supports our Commandant's direction to 
quickly re-establish presence in the Pacific, and to ensure reset and 
reconstitution actions are balanced to protect the long-term health and 
readiness of our most precious asset, the warfighter. The long-term 
impact of sequestration is deferred maintenance. The Marine Corps will 
have to closely scrutinize and determine equipment maintenance 
priorities, assume risk in mission-essential weapon system readiness, 
delay normal depot sustainment, and potentially delay reset operations. 
Our efforts to maintain the readiness of the deployed force and correct 
the readiness imbalance of the non-deployed forces could be further 
exacerbated by sequestration if our Operations and Maintenance (O&M) 
accounts are diminished. While we anticipate being able to remain on 
schedule with our reset plan for the remainder of FY2013, sequestration 
in FY2014 and beyond would hinder the Marine Corps' ability to ``reset 
and reconstitute in-stride'' by FY2017 and ultimately impact equipment 
readiness.
    Mr. Wittman. What is the current requirement for amphibious lift? 
What level are we currently providing? What is the plan to close the 
shortfall?
    General Tryon and General Faulkner. Per a shipbuilding agreement 
document dated 7 Jan 09 (sent to Congress), CNO, CMC, and SECNAV agreed 
that the validated requirement for amphibious warships is 38. This 
requirement is based on the ability to deploy a 2.0 MEB Assault Echelon 
in support of major contingency operations. Due to fiscal constraints, 
the CNO, CMC, and SECNAV agreed that the Navy will sustain an inventory 
of 33 amphibious ships. The Navy and Marine Corps assumed risk in this 
shortfall, but have deemed it as acceptable. The inventory of 33 
amphibious ships, when applied to a planned operational availability 
rate of 90%, provides 30 operationally available ships.
    There are currently 30 amphibious warships in the Navy inventory. 
The Annual Report to Congress on Long-Range Plan for Construction of 
Naval Vessels for FY2014 (dated May 2013) reflects the Navy's plan to 
achieve the agreed-upon requirement of amphibious ships that provide 
the lift capacity for a 2.0 MEB Assault Echelon. This plan will achieve 
an amphibious warship inventory of 34 ships in FY25, and maintain an 
inventory of 33 ships through FY29. This plan includes the early 
decommissioning of two Whidbey Island-class ships, at approximately 
half of their estimated service life, in FY15.
    Mr. Wittman. How would you characterize this increased risk? How 
would these reductions change Marine operations? If this or other 
constraints push the Corps to more distributed MEU operations, are 
there increased operational support costs? If so, does the FY 2014 
budget support those increased costs?
    General Tryon and General Faulkner. The security environment across 
the global commons is tenuous and mandates ready, responsive and 
forward postured forces to protect vital U.S. strategic interest, 
facilities and personnel. The loss of SPMAGTF's crisis response 
capabilities increases strategic and operational security risk to 
potentially unacceptable levels. Full sequestration will impact many 
different functional and operational areas across the U.S. Marine 
Corps; inclusive of end-strength structure, operating budgets and 
programmatics/modernization; resulting in creating an intricate balance 
between maintaining critical forward postured crisis response 
capabilities, affecting full recovery/reconstitution from a decade of 
wartime efforts, and modernizing the force to meet more agile, 
technologically advanced and complex threats. At higher risk is DOD's 
ability to protect U.S. strategic interest, facilities and personnel 
without benefit of forward postured immediate response SPMAGTF 
capabilities. Regardless of Service sourcing, FULL sequestration will 
degrade DOD's ability to provide adequate protection and immediate 
response to counter a continuously eroding security environment.
    Full sequestration will have a debilitating impact across the U.S. 
Marine Corps to maintain crisis response capabilities across the global 
commons. Actual operations will likely not change because of the nature 
of today's specified and implied threats. However, Marine Corps force 
structure and programmatic/modernization offsets may afford only minor 
fiscal maneuver space, permitting sustainment of CR capabilities in 
HIGH risk areas. The mid to long term impacts are anticipated to be the 
gradual degradation of U.S. Marine Corps available inventory, inability 
to surge forces when the security environment erodes further, and 
reduction of Marine Corps and Navy maritime agility to operate 
seamlessly across air, land and sea
domains.
    Distributed and Split-ARG operations are common operational 
imperatives today, and are not envisioned to change in the mid to long 
term environment. The ARG/MEU offers a unique capability that is not 
bound by political agendas, host nation agreements, basing permissions 
or ground maneuver space. As such, the Navy/Marine Corps team embarked 
upon development of doctrinal changes in which the ARG/MEU forms, 
organizes, trains and embarks Naval forces in a manner which permits 
both distributed and split-ARG operations. Although when distributed, 
the ARG/MEU represents a lesser capability than when fully aggregated, 
even this degraded capability presents SECDEF and GCC's an option for 
employment which is seamless in transition from one GCC AOR to another, 
and provides a response option to most any type security/threat 
environment. Associated operating cost increased accordingly as 
sustainment and logistics hubs are expanded to cover multiple GCC AORs. 
The Navy/Marine Corps teams continually looks toward economy of force 
opportunities, leveraging logistics/sustainment and throughput hubs 
provided by ground based SPMAGTF's, CVN Task Forces and other Services 
in order to minimize unprogrammed cost impacts.
    Although the ARG/MEU presents the most versatile capability in the 
DOD inventory, the amphibious shipping inventory has gradually 
decreased over the past decade (60 amphibious ships pre-9/11 to 30 
ships 2013), rendering this unique capability limited in capacity to a 
point where no more than 2 X ARG/MEU's can be forward-deployed at any 
time. The Naval 30 year shipbuilding plan does not offer reprieve to 
today's current shortfalls as the projected end-state is 33 ships, with 
28 anticipated to be operationally ready/available for tasking.
    Efficiencies gained through execution of economy of force efforts, 
in conjunctions with U.S. Marine Corps FSRG/FORG structural reductions 
and risk to delay programmatic/modernization actions; provide limited 
fiscal maneuver space. Each global threat or event requiring a 
heightened security posture, resulting in unprogrammed deployment of 
forces, potentially consumes any fiscal agility that may have been 
previously gained. Additionally, decreases in Overseas Contingency 
Operations (OCO) funding significantly increases pressure on Service 
level baseline budgets. Since the POM and GFM cycles are not fully 
synchronized, these process compete against each other versus being 
complimentary. Until such time that the POM and GFM cycles are aligned, 
the Services will be unable to create a ``contingency'' funding posture 
which would permit surging forces when required, without degrading the 
operating budget of those already allocated for specified mission/task.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
